<html>
<title> - PROTECTING MARITIME FACILITIES IN THE 21ST CENTURY: ARE OUR NATION'S PORTS AT RISK FOR A CYBER ATTACK?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 PROTECTING MARITIME FACILITIES IN THE 21ST CENTURY: ARE OUR NATION'S 
                   PORTS AT RISK FOR A CYBER ATTACK?

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

                           Serial No. 114-35

                               __________

       Printed for the use of the Committee on Homeland Security
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

99-577 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                 Candice S. Miller, Michigan, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Brian Higgins, New York
Will Hurd, Texas                     Norma J. Torres, California
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Rear Admiral Paul F. Thomas, Assistant Commandant, Prevention 
  Policy, U.S. Coast Guard, U.S. Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Gregory C. Wilshusen, Director, Information Security Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Randy D. Parsons, Director, Security Services, Port of Long 
  Beach, California:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Mr. Jonathan Sawicki, Security Improvement Program Manager, Ports 
  of Brownsville and Harlingen, Texas:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26
 
 PROTECTING MARITIME FACILITIES IN THE 21ST CENTURY: ARE OUR NATION'S 
                   PORTS AT RISK FOR A CYBER ATTACK?

                              ----------                              


                       Thursday, October 8, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairman of the subcommittee] presiding.
    Present: Representatives Miller, Hurd, Vela, Sanchez, and 
Jackson Lee.
    Also present: Representatives Donovan, Ratcliffe, and 
Langevin.
    Mrs. Miller. In the interest of time, we are expecting a 
number of other Members, but we are going to start since we 
have a hard stop today at noon.
    The Committee on Homeland Security's Subcommittee on Border 
and Maritime Security will come to order. The subcommittee is 
meeting today to examine the cybersecurity efforts at our 
Nation's ports. We are pleased today to be joined by Admiral 
Paul Thomas, who is the assistant commandant for prevention 
policy for the United States Coast Guard; and Mr. Gregory 
Wilshusen, director of information security issues for the 
Government Accountability Office; Mr. Randy Parsons, who is 
director of security services for the Port of Long Beach, 
California; and Mr. Jonathan Sawicki, who is the security 
improvement program manager for the Ports of Harlingen and 
Brownsville, Texas.
    We appreciate all of our witnesses coming this morning. I 
would also at this time ask unanimous consent that the 
gentleman from New York, Mr. Donovan, a Member of the full 
committee, be allowed to sit on the dais and participate in 
today's hearing as well.
    Without objection, so ordered.
    We appreciate his interest in this subject.
    Before we start, I think all of us certainly offer our 
thoughts and prayers to the family of the 33 crew members of El 
Faro, which was just a very terrible, tragic event that 
certainly reminds us all of the force of Mother Nature. But the 
Coast Guard men and women that went out and performed all the 
services, the rescues. As it goes forward, we certainly thank 
all of them for their service all the time, but there it was on 
vivid display certainly.
    The purpose of today's hearing is to examine the 
vulnerability of seaports to cyber attacks and how well-
prepared we are to prevent and respond to such an attack. 
Today, this is going to be the first Congressional hearing 
really convened to examine cybersecurity at our Nation's ports, 
which I think is fitting since October actually is also 
National Cybersecurity Awareness Month.
    The Coast Guard is the Government agency responsible for 
the physical security of our Nation's port infrastructures. In 
working through the Area Maritime Security Committees, the 
Coast Guard partners with the port authorities and operators to 
update access controls, fence off sensitive areas of the ports, 
and increase surveillance, when appropriate, certainly.
    Since 9/11, Congress has appropriated $2.4 billion in port 
security grant funds to harden port facilities against the 
potential of a terror attack. As a Nation, I think we have done 
a fairly good job of updating the physical security at the 
ports, but we certainly have concerns that remain about whether 
or not the cybersecurity at our ports is adequate. Under the 
Maritime Transportation Security Act of 2002, the Coast Guard 
was granted responsibility for the protection of communication 
systems, including information that flows through the maritime 
transportation system. Port facilities and ship operators, like 
many industries in America, are relying certainly increasingly 
on automation to streamline operations.
    While those kinds of innovations certainly reduce time and 
lower the cost of doing business, they also carry a risk. 
Terror groups, nation states, criminal organizations, hackers, 
and even disgruntled employees could breach these systems with 
potentially catastrophic results to the Nation's economy. More 
than $1 trillion of goods, from cars to oil to corn and 
everything in between move through the Nation's seaports each 
and every year. Increasingly, cargo is moving through our ports 
using automated industrial control systems. These systems are 
controlling machinery on ports that move containers or fill 
tanks and load and offload ships. I understand that the Port of 
Long Beach and port partners are working toward building, 
perhaps, the most automated and efficient container terminal in 
the United States. So we will be looking forward to that 
testimony from Mr. Parsons about that.
    While this automation certainly has a lot of benefits, it 
doesn't come without risks. In 2014, a major U.S. port facility 
suffered a system disruption that shut down a significant 
number of ship-to-shore cranes for several hours. In Europe, 
drug smugglers attempted to hack into cargo tacking systems to 
rearrange containers and to hide their drugs. Foreign military 
is suspected of compromising several systems aboard a 
commercial ship contracted by the U.S. Transportation Control. 
These breaches in the maritime domain are certainly concerning 
not only from an economic standpoint but because of the 
dangerous cargo, such as liquified natural gas and other 
certain dangerous cargo that pass through the Nation's 
seaports. If a cyber breach were to occur that tampered with 
the industrial control systems that monitor these cargos, it 
could potentially allow the release of very, very dangerous 
chemicals.
    The private sector, of course, owns the ports and must 
clearly protect its own interests. However, the Department of 
Homeland Security has to be involved to ensure communication 
between ports Nation-wide. Information sharing will undoubtedly 
be part of any solution that we look to to protect our 
seaports. We have to have a strategy that looks beyond 
individual ports. Just as we have hardened physical security, 
we need to do the same in the virtual space for systems 
critical to the maritime transportation system to protect 
against malicious actors.
    The first step in reducing this risk is to conduct risk 
assessments. The Coast Guard has not yet conducted cyber risk 
assessments, though some individual ports have taken the 
initiative themselves. Port security grants can certainly be a 
way to help port operators make wise choices based on an 
individual assessment of risk. In providing that grant funding, 
however, we certainly need to understand which ports are at 
risk of a cyber incident. Retooling the maritime security risk 
analysis model to incorporate cyber risks is a concept worth 
exploring further and incorporating it into the Port Security 
Grant Program as well.
    Then, finally, I think we need to better understand how the 
Department of Homeland Security, through the National 
Protection and Programs Directorate and the National 
Cybersecurity and Communications Integration Center, interfaces 
with the U.S. Coast Guard's cyber efforts. This is a very 
technical field, which may or may not be outside of the 
expertise of the Coast Guard inspector. So despite the exposure 
for proprietary information, we are wondering whether or not 
third-party validators, authorized by the Coast Guard, who 
would have oversight of such a thing, could they review and 
certify cybersecurity standards. So perhaps there is some merit 
in looking at that model for cybersecurity. We would be 
interested in pursuing that as well.
    I certainly want to thank the witnesses for appearing 
before us. I am going to give you a more formal introduction in 
just a moment.
    But the Chair now recognizes our Ranking Member of the 
subcommittee, the gentleman from Texas, Mr. Vela, for any 
statement that he may have.
    [The statement of Chairman Miller follows:]
                Statement of Chairman Candice S. Miller
    Before we start, I would just like to offer my thoughts and prayers 
to the family of the 33 crewmembers of the El Faro, the cargo container 
ship that went missing last week near the Bahamas. I thank the men and 
women of the Coast Guard for their valiant efforts to find the ship and 
the missing crew.
    The purpose of today's hearing is to examine the vulnerability of 
seaports to cyber attacks and how well we are prepared to prevent and 
respond to such an attack.
    Our meeting today marks the first Congressional hearing convened to 
examine cybersecurity at our Nation's ports, which is fitting since 
October is also National Cybersecurity Awareness Month.
    The United States Coast Guard is the Government agency responsible 
for the physical security of our Nation's port infrastructure. Working 
through the Area Maritime Security Committees, the Coast Guard partners 
with port authorities and operators to update access controls, fence-
off sensitive areas of the ports, and increase surveillance when 
appropriate.
    Since the terrorist attacks of September 11, 2001, the United 
States Congress has appropriated $2.4 billion dollars in port security 
grant funds to harden port facilities against the potential for a 
terror attack. As a Nation, we have done a fairly good job updating the 
physical security at ports, but I am concerned that the U.S. Government 
has fallen behind when it comes to the cybersecurity of the port.
    Under the Maritime Transportation Security Act of 2002, the U.S. 
Coast Guard was granted responsibility for the protection of 
communication systems, including information that flows through the 
Marine Transportation System. Port facilities and ship operators, like 
many industries in America, increasingly rely on automation to 
streamline operations. While those innovations reduce the time it takes 
to stock our shelves, and lower the cost of doing business, they also 
carry risk.
    Terror groups, nation-states, criminal organizations, hackers and 
even disgruntled employees could breach these systems--with potentially 
catastrophic results to the Nation's economy.
    More than $1 trillion dollars of goods, from cars to oil to corn 
and everything in between move through the Nation's seaports every 
year.
    Increasingly, cargo is moving through our ports using automated 
industrial control systems. These computer systems are controlling 
machinery on ports to move containers, fill tanks and on-load and off-
load ships.
    I understand that the Port of Long Beach and port partners are 
working towards building perhaps the most automated and efficient 
container terminal in the United States. Once completed it will reduce 
wait times at the ports and increase throughput.
    While this automation has substantial benefits, it does not come 
without risks. In 2014, a major U.S. port facility suffered a system 
disruption that shut down a significant number of ship-to-shore cranes 
for several hours. In Europe, drug smugglers attempted to hack into 
cargo tracking systems to rearrange containers and hide their drugs. 
Similarly, a foreign military is suspected of compromising several 
systems aboard a commercial ship contracted by the U.S. Transportation 
Command.
    These breaches in the maritime domain are particularly concerning, 
not only from an economic standpoint, but because of the dangerous 
cargo such as Liquefied Natural Gas, and other Certain Dangerous Cargos 
that also pass through the Nation's seaports. If a cyber breach were to 
occur that tampered with the industrial control systems that monitor 
these cargos, it could potentially allow the release of harmful and 
dangerous chemicals.
    Despite the fact the GAO has placed cyber security of our Nation's 
critical infrastructure on the ``High Risk'' list since 2003, the Coast 
Guard, and DHS as a whole, have been slow to fully engage on 
cybersecurity efforts at the Nation's 360 seaports.
    The threat of cyber attack is worrisome to be sure. But when it 
comes to the maritime domain and the protection of maritime critical 
infrastructure, who is really in charge?
    The private sector owns the ports, and must clearly protect its own 
interests. However, the Department of Homeland Security must be 
involved to ensure communication between ports Nation-wide. Information 
sharing will undoubtedly be part of any solution as we look to protect 
our seaports and we must have a strategy that looks beyond individual 
ports.
    Just as we have hardened physical security, we need to do the same 
in the virtual space for systems critical to the marine transportation 
system to protect against malicious actors. The first step in reducing 
this risk is to conduct risk assessments. The Coast Guard has not yet 
conducted cyber risk assessments, though some individual ports have 
taken the initiative themselves.
    Port security grants can be a way to help port operators make wise 
choices based on an individual assessment of risk. In providing grant 
funding, however, we must understand which ports are at risk of a cyber 
incident. Retooling the Maritime Security Risk Analysis Model to 
incorporate cyber risks is a concept worth exploring further and 
incorporating into the port security grant program.
    Finally, I want to better understand how DHS, through the National 
Protection and Programs Directorate (NPPD) and the National 
Cybersecurity and Communication Integration Center, interfaces with the 
U.S. Coast Guard's cyber efforts.
    We are all aware that the Government moves slowly and this can 
cause us to quickly fall behind, especially in an area like cyber that 
moves rapidly.
    With that in mind, should the Coast Guard's role in cyber be 
limited to oversight and prevention rather than the creation of 
standards?
    This is a very technical field which may be outside the expertise 
of a Coast Guard Inspector. Therefore, despite the exposure to 
proprietary information, could third-party validators, authorized by 
the Coast Guard, review and certify cybersecurity standards? I think 
there is merit in looking at that model for cybersecurity and would be 
interested in hearing from the witnesses on that topic.
    I thank the witnesses for appearing before us today and look 
forward to their testimony.

    Mr. Vela. Chairman Miller, thank you for holding today's 
hearing to discuss the threat of cyber attack at ports and what 
the U.S. Coast Guard and the Department of Homeland Security 
are doing with private and public partners to protect maritime 
critical infrastructure against such attacks. I thank all our 
witnesses for being with us here today.
    Since the Coast Guard is responsible for the security of 
our Nation's ports, entities both in the private sector and in 
local and State government rely on the service's leadership 
when doing their part to mitigate risks at our ports. As 
Ranking Member of the subcommittee and as a Member representing 
a district along the Gulf of Mexico, I have an interest in port 
security issues and recognize the unique challenges each port 
faces.
    Texas' District 34 includes four maritime ports--the Port 
of Brownsville, the Port of Harlingen, Port Isabel, and Port 
Mansfield--and is adjacent to the Port of Corpus Christi, which 
is represented by Congressman Farenthold. Each of these ports 
has its own set of characteristics, managing various volumes 
and types of cargo and other commercial traffic. One of the 
differences is, for example, the Port of Brownsville and the 
Port of Harlingen are about 17 miles inland whereas the port of 
Corpus Christi is right adjacent to a city of 300,000 people. I 
have met with the chief of police at the Port of Corpus 
Christi. I know he has some concerns about some of the 
vulnerabilities there. I look forward to hearing about that. As 
with other ports, facilitating the flow of commerce must be 
judiciously balanced with measures required to keep our ports 
secure. As in my district, many of our Nation's ports are 
closely linked to other vital transportation networks and 
critical infrastructure which often lead to major metropolitan 
areas.
    Traditionally, our focus has been on the physical security 
of these ports. Today, we will discuss an important element 
that is growing and rapidly evolving, the use of technology at 
ports and the security risks posed by our increased reliance on 
these automated and networked systems. There is no question 
that technology can enhance the operations and security of 
seaports which, in turn, helps boost economies through the 
import and export of goods. This technology also adds an 
additional level of risk that we must better understand and 
mitigate.
    Though this subcommittee does not typically discuss 
cybersecurity, it is important that we understand the Federal 
Government's role in this important port security issue. Last 
June, the Government Accountability Office issued a report on 
cybersecurity at ports. Its findings highlighted several 
actions the Coast Guard and DHS as a whole should take in order 
to better prepare for and ideally prevent cyber attacks on 
systems used at seaports. In June, the Coast Guard published 
their cyber strategy, which discussed the need to include 
cybersecurity as an element of security regimes for maritime 
critical infrastructure. Today, I hope to better understand how 
the GAO's findings influenced Coast Guard cyber strategy and 
how it will help inform implementation of the strategy.
    I would like to learn more about how the Coast Guard is 
developing guidance and standards that will address safety and 
security concerns while being sufficiently flexible for ports 
around the country. There are no one-size-fits-all solutions. 
What works in Long Beach may well not work best for 
Brownsville, for example. I also hope to hear directly from our 
port witnesses today about how ports of different types and 
sizes are addressing cybersecurity and what more the Coast 
Guard, DHS, and Congress can do to support your efforts.
    I am hopeful that today's hearing will broaden the 
subcommittee's understanding of the emerging risks related to 
technology at our ports.
    With that, Madam Chairman, I yield back the balance of my 
time.
    Mrs. Miller. I thank the gentleman very much. Members are 
reminded that additional statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            October 8, 2015
    The Committee on Homeland Security has long been engaged on the 
issues of cybersecurity, port security, and critical infrastructure 
protection. This hearing brings those critical issues together by 
focusing on cybersecurity at America's ports.
    A 2014 Government Accountability Office (GAO) report found that 
actions taken by the Department of Homeland Security (DHS) and other 
Federal agencies to address cybersecurity in the maritime port 
environment have been limited. So much of the focus has been on 
improving the physical security at ports that cybersecurity at ports, 
an emerging threat, has been secondary.
    In recent years, cyber technology has helped promote efficient port 
operations and enhanced security. But these benefits come with risks to 
the Maritime Transportation System. For example, in 2013, officials at 
Europol disclosed that a group of drug traffickers recruited hackers to 
breach information technology systems at the Port of Antwerp to smuggle 
container loads of cocaine.
    Our cargo security programs are predicated on electronic 
transmission of manifest data, underscoring the potential risk of such 
cyber breaches not just from drug smugglers, but also other criminals 
and even terrorists. Requiring the Coast Guard to complete a cyber risk 
assessment and ensure that cyber risks are addressed in maritime 
security plans, as recommended by GAO, is a good first step toward 
reducing cyber vulnerabilities at ports.
    Similarly, allowing Port Security Grant Program funds to be used 
for cybersecurity, and ensuring the funds are used effectively, is a 
step in the right direction. The Coast Guard's June 2015 Cyber Strategy 
presents cyber space as another operational domain for the Service, and 
sets forth three strategic priorities: Defending cyber space, enabling 
operations, and protecting infrastructure.
    I look forward to hearing from the Coast Guard today about how they 
intend to implement this Strategy, with the help of other Government 
and private-sector stakeholders. I also want to hear from GAO about 
what more can be done by DHS and the Coast Guard in this domain, as 
Coast Guard implements its strategy.
    Finally, I want to discuss with the ports how we can support their 
cybersecurity efforts, recognizing that each port is different and no 
single solution is likely to be appropriate for all. Certainly, 
providing ports and other stakeholders, like terminal operators and 
transportation companies, with the appropriate guidance and expertise 
will be essential. Adequate resources are also going to be necessary to 
address cybersecurity risks at ports, and Congress must provide those 
resources and help ensure they are used wisely.

    Mrs. Miller. Again, we are pleased to be joined by four 
very distinguished witnesses today to discuss this very 
important topic. In way of a more formal introduction, Rear 
Admiral Paul Thomas serves as the assistant commandant for 
prevention policy in the United States Coast Guard. In this 
role, Admiral Thomas oversees three Coast Guard directorates: 
Inspections and Compliance; Marine Transportation Systems; and 
Commercial Regulations and Standards. In addition to his 
assignment at the Coast Guard headquarters here in Washington, 
Admiral Thomas has also served in San Francisco, Port 
Canaveral, Florida, and Galveston, Texas.
    Mr. Gregory Wilshusen is the director of information 
security issues at GAO, where he leads cybersecurity and 
privacy-related studies and audits of the Federal Government 
and critical infrastructure. He has over 30 years of auditing, 
financial management, and information systems experience, 
having served at the Department of Education before joining the 
GAO in 1997.
    Mr. Randy Parsons is the director of security services for 
the Port of Long Beach, California, the Nation's second-busiest 
seaport, a position that he has held since the fall of 2012. 
Mr. Parsons oversees more than 80 security personnel, including 
harbor patrol officers. He directs the homeland security 
program for the 3,000-acre port complex, including 24-hour 
patrol, antiterrorism programs, and security coverage. He has a 
long history of public service, which includes time with the 
FBI and at TSA. Mr. Jonathan Sawicki is the security 
improvement program manager for the Ports of Brownsville and 
Harlingen, Texas, where since 2008, he has assisted in the 
development of port-wide security strategic risk management 
plans, including a TWIC card reader deployment program at the 
Port of Brownsville.
    So their full written statements will appear in the record.
    The Chair now recognizes Admiral Thomas for his testimony. 
Thank you, sir.

STATEMENT OF REAR ADMIRAL PAUL F. THOMAS, ASSISTANT COMMANDANT, 
    PREVENTION POLICY, U.S. COAST GUARD, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Thomas. Thank you, Madam Chairman. Good morning. 
Good morning to the distinguished Members of the committee. 
Thank you for your continued strong support of the Coast Guard 
and for this opportunity to talk about the very important, 
relevant, and timely topic of cyber in the maritime sector.
    Madam Chairman, if I may, before we begin this morning, 
join you in offering, on behalf of all the men and women of the 
Coast Guard, our deepest condolences to the families of the 33 
souls that were lost aboard El Faro last week. As mariners and 
maritime professionals, we know only too well the perils that 
all those who serve our Nation at sea face. We felt the loss of 
El Faro very deeply.
    Madam Chairman, as has already been mentioned, the Coast 
Guard recently released our cyber strategy. That strategy 
recognizes that cyber does not represent a new mission for the 
Coast Guard but is, in fact, a domain in which we must be able 
to operate effectively in order to conduct all of our missions, 
including our response and our prevention missions. In that 
sense, the Coast Guard authorities, responsibilities, roles, 
and missions naturally extend into cyber space. The cyber 
strategy identifies three priorities for our service: Defending 
our own cyber space, enabling Coast Guard operations, and 
protecting critical maritime infrastructure.
    It is this third priority that falls within my purview and 
the Coast Guard and which I understand is of most interest to 
this committee today. The Coast Guard is really well-suited to 
take a leadership role in addressing cyber risks to maritime 
critical infrastructure as part of the larger interagency 
effort led by the Department of Homeland Security and in 
conjunction with maritime stakeholders. The Coast Guard, as has 
already been mentioned, has a long history of working with port 
partners across the interagency to mitigate safety, security, 
and environmental risks to U.S. ports. We will take the same 
approach in the cyber domain. The Coast Guard is the sector-
specific agency for maritime transportation under the National 
Infrastructure Protection Plan. Whether the initiating event 
occurs in cyber space or in a physical domain, the Coast Guard 
already has broad authority and responsibility under the 
Maritime Transportation Security Act to prevent transportation 
security incidents. We have similar authority and 
responsibility under a number of statutes to prevent accidents 
and incidents that may damage people, property, or the 
environment. We have an existing regulatory structure that 
requires regulated industry to assess safety, security, and 
environmental risks, and to address those risks.
    The Coast Guard has already undertaken significant effort 
within the interagency, industry, academia, and with our 
international partners to assess and understand cyber risk in a 
maritime transportation system. In the course of this work, we 
have leveraged the expertise that exists at the Department of 
Homeland Security, the Department of Energy, the Department of 
Defense, the National Institute for Standards and Technology to 
many others. Our ultimate goal is to incorporate cyber risk 
management into the existing safety and security regimes that 
have served the maritime industry and the American public so 
well for so long. Of course, in doing so, we will remain 
focused, as we always have, on risk-based performance standards 
that provide flexible, layered protection against cyber risks 
while allowing the benefits of cyber-enabled operations in the 
MTS.
    There is no doubt, it has been mentioned, cyber 
capabilities that make our transportation systems more 
effective, efficient, productive, and environmentally friendly 
also introduce operational risks that now have to be managed 
effectively. We have already seen incidents in the maritime 
transportation system that have resulted in physical 
consequences or significant near misses. In some cases, it 
would appear that these were intentional actions, perhaps by 
actors with malicious intent. But in other cases, they were 
clearly accidents caused by improper use or maintenance of 
cyber systems. That is why cyber is both a safety and a 
security issue. That is why the Coast Guard is holistically 
addressing cyber risk management as just that, a risk 
management challenge. Thank you for your time and attention. I 
look forward to hearing from the rest of the panelists and to 
further discussion.
    [The prepared statement of Admiral Thomas follows:]
                  Prepared Statement of Paul F. Thomas
                            October 8, 2015
                              introduction
    Good morning Madam Chairman and distinguished Members of the 
committee. I am honored to be here to discuss cybersecurity in U.S. 
ports. I will focus my comments in three areas. The first is to 
recognize the importance of cybersecurity and then explain cyber safety 
concerns, which emphasize the need to view this issue as a ``cyber risk 
management'' challenge. The second is to explain the need for an 
approach that emphasizes the essential role and responsibilities of 
maritime industry partners. The third is to outline what we have 
achieved and propose a way forward.
    The Coast Guard has a long history of working with port partners to 
mitigate safety, security, and environmental risks to U.S. ports and 
maritime critical infrastructure. Since our founding in 1790, we have 
patrolled in the Nation's ports and waterways to prevent and respond to 
major threats and hazards. Since Congress established the Steamboat 
Inspection Service in 1852, Coast Guard prevention authorities have 
evolved alongside emerging threats and changing port infrastructure. 
The Coast Guard established Captains of the Port to execute these 
authorities and work with our partners to prepare our ports for natural 
disasters, accidents, and deliberate acts.
    Over time, the Coast Guard and the maritime industry have 
cooperated to address the risks associated with new threats and 
technologies. Security threats have evolved from coastal piracy to 
complex smuggling operations, transnational organized crime, and 
terrorism. Safety risks have likewise evolved as merchant shipping 
progressed from sailing ships to ships driven by coal-fired steam 
boilers, to diesel engines and most recently to liquefied natural gas. 
Waterfront operations evolved from break bulk cargos to 
containerization, with sophisticated systems now controlling the 
movement and tracking of containerized and liquid cargos.
    The Coast Guard's recently-developed Cyber Strategy proposes three 
strategic priorities for the service--defending our own cyber space, 
enabling Coast Guard operations, and protecting maritime critical 
infrastructure. Cybersecurity in U.S. ports is a key goal of this 
strategy.
            cyber risks and the marine transportation system
    Similar to other sectors, emerging cyber threats in the port 
environment are diverse and complex. Cyber risks manifest themselves as 
both safety and security concerns. As such, the Coast Guard is 
emphasizing the term ``cyber risk management,'' which also addresses 
how much the maritime transportation system (MTS) relies on information 
technology systems to connect to the global supply chain. Vessel and 
facility operators use computers and cyber-dependent systems for 
navigation, communications, engineering, cargo, ballast, safety, 
environmental control, and emergency systems such as security 
monitoring, fire detection, and alarm systems. Collectively these 
systems enable the MTS to operate with an impressive record of 
efficiency and reliability.
    While these information technology systems create benefits, they 
also introduce potential risks. Exploitation, misuse, or simple failure 
of information technology systems can cause injury or death, harm the 
marine environment, or disrupt vital trade activity.
    Outside the United States, cyber-related incidents among technology 
systems have been reported ranging from container terminal operations 
ashore to offshore platform stability and dynamic positioning for 
offshore supply vessels. While in some cases criminals may have been 
the source of these events, others have been the result of non-targeted 
malware or relatively unsophisticated insider threats. Even legitimate 
functions, such as remotely-driven software updates, can disable vital 
systems if done at the wrong time or under the wrong conditions.
    In one well-publicized event, organized crime exploited a European 
container terminal's cargo tracking system to facilitate drug 
smuggling. Cargo control is also one of the requirements of the Coast 
Guard's Maritime Transportation Security Act (MTSA) regulations, and we 
are well aware that such an incident, or one even more serious, might 
occur in the United States.
    ``Cyber risk management'' also has safety implications. We are 
aware of incidents in which software problems led to the failure of 
dynamic positioning or navigation systems. These were not due to 
targeted attacks, but malware that migrated to vital systems through 
poor information technology practices.
    As port facilities and vessels continue to incorporate information 
technology systems into their operations, the Coast Guard must adapt 
its regulatory regime accordingly. Regardless of whether an incident is 
a cyber attack, or a cyber accident, we must recognize the potential 
consequences to mariners, port workers, the public, and the marine 
environment. With approximately 360 sea and river ports that handle 
more than $1.3 trillion in annual cargo, our Nation is critically 
dependent on a safe, secure, and efficient MTS.
       unity of effort--partnerships, learning, and coordination
    The Coast Guard is working closely with the Department of Homeland 
Security (DHS) and other Government agencies to help the maritime 
industry identify their cyber risks.
    This past March, the Coast Guard sponsored a seminar at the DHS 
Center of Excellence at Rutgers University on maritime cyber risks. We 
held a similar event at the Coast Guard Academy, and a follow-up at the 
California Maritime Academy to address specific cyber research 
questions. Each of these events included a broad range of cyber 
practitioners from industry, Government, and academia.
    In another effort, the Coast Guard Research and Development Center 
(supported by DHS S&T/Cyber Security Division) recently evaluated cyber 
vulnerabilities associated with wireless access to maritime critical 
infrastructure at certain U.S. ports. The preliminary results indicate 
significant vulnerabilities. While this study is relatively narrow in 
scope, the Coast Guard is continuing to evaluate the broad range of 
cyber risks in the maritime domain.
    The Coast Guard has also partnered with various groups to evaluate 
and address cyber risks more systematically. Working with the American 
Association of Port Authorities and the National Institute of Standards 
and Technology (NIST), we are developing a cyber risk profile for bulk 
liquid terminals--such as those that transfer oil, gasoline, and liquid 
hazardous materials.
    Another area with potentially significant consequences is the 
offshore oil and natural gas industry. This industry relies on 
information technology systems for a wide variety of functions--from 
the dynamic positioning systems that allow for precise navigation 
control, even in heavy wind and sea conditions, to real-time monitoring 
of drilling and production activity. Along with senior representatives 
from industry, the Department of Energy, and DHS, I recently attended a 
meeting of the Energy Sector Coordinating Committee in Houston. The 
exclusive purpose of this meeting was to discuss cyber risks. While the 
potential threats to this industry could be serious, I was very pleased 
with the cooperation and realistic approach that the participants 
expressed. As part of a related effort, the Coast Guard is working with 
the National Offshore Safety Advisory Committee to address cyber risks 
in the offshore industry.
    Our work with other agencies, advisory bodies, and institutions has 
helped us identify the standards and best practices that can reduce 
risk. The Coast Guard is a strong advocate for using effective 
cybersecurity tools, guidelines, and sources of information. These 
include the Cybersecurity Framework developed by the NIST, the Cyber 
Capability Maturity Model developed by the Department of Energy, and 
the services provided by DHS's Computer Emergency Response Team (CERT), 
among others.
                      international considerations
    Cyber risks are an inherently global issue, and cooperation with 
international partners is an important part of our strategy. Covert 
electronic surveillance by foreign ships visiting our ports is a long-
standing security concern, and cyber technology certainly provides new 
avenues for such activity. Sound cyber practices by marine terminals 
can help minimize the likelihood that they might become victims of such 
activity, or of less nefarious activity that might still impact their 
business or operations.
    Failure to follow sound cyber practices may create as much risk as 
not conducting proper equipment maintenance or adequate crew training 
for conventional shipboard emergencies. Accordingly, the Coast Guard is 
working within the International Maritime Organization to incorporate 
cyber risks into Safety Management System requirements, as well as the 
International Ship and Port Facility Security (ISPS) Code. While this 
is a deliberate and lengthy process, we have strong support from 
several nations, including Canada, South Korea, and Japan.
      coast guard activities to address cyber risks in the marine 
                         transportation system
    The Coast Guard is and has been working to address cyber risks in 
the Marine Transportation System. In 2012, we directed all of our Area 
Maritime Security Committees (AMSC) to consider cyber issues alongside 
more conventional risks as they evaluated potential security risks to 
their ports. Required by the MTSA, AMSCs are public-private 
partnerships that are chaired by the local Captain of the Port. All 
port stakeholders are represented at their local AMSC, including 
representatives from the Federal, State, and local government, as well 
as private industry and labor.
    Across the country, AMSCs have established cyber subcommittees, 
evaluated cybersecurity risks, held cyber-related exercises, and 
assisted in the evaluation of port security grant funding, including 
grants directed specifically at cybersecurity vulnerabilities. AMSCs 
also serve as a forum to share best practices across Government and 
industry, such as the FBI's InfraGard program.
    Because no amount of effort can guarantee that a cyber incident 
will not occur, the management of cyber risk demands a significant 
resilience and recovery aspect. AMSCs include a recovery annex to their 
Area Maritime Security Plans and these annexes are well-suited to 
include cyber events as an element in port contingency planning. If or 
when there is a cyber incident in any given port area, our collective 
goal must be to continue safe and secure operations with minimal 
disruptions.
                  current challenges and future plans
    The Coast Guard has made considerable progress in improving our own 
understanding of cyber risks, as well as improving cyber preparedness 
in ports and across the maritime industry. Despite these 
accomplishments, we know that significant work remains.
    Our ultimate goal is to incorporate cyber risk management into the 
existing safety and security regimes that have served the industry, the 
Coast Guard, and the public so well, for so long. This past January, we 
held a public meeting to solicit suggestions on how to best accomplish 
this goal. We will continue to engage with industry and the public as 
we proceed.
    The complexity of cyber technology, and the fast pace of change, 
suggest that any requirements will need to be risk- and performance-
based. That is, rather than mandate a specific technical solution, the 
Coast Guard believes that facility and vessel operators should identify 
and evaluate the vulnerabilities and consequences associated with their 
cyber systems, and put in place an appropriate suite of mitigating 
measures sufficient to achieve an acceptable level of security. This 
approach has served the industry and public well in conventional safety 
and security risks. Our challenge is to devise a methodology suited to 
the nuances of cyber risk. Of course it must produce meaningful results 
in a way that the vessel or facility operators can demonstrate an 
acceptable level of security to the Coast Guard and other interested 
parties.
    In addition to policy development, we recognize the need to develop 
our own workforce and take other measures to ensure we have the 
capacity and skills necessary to carry out those policies. The Coast 
Guard Cyber Strategy identifies several factors to this end, including 
training, education, organizational structure, and partnerships.
    In addressing cyber risks to ports and other aspects of the 
maritime industry, our commitment is to address those risks with the 
same level of professionalism, efficiency, and effectiveness that the 
public has come to expect. The Coast Guard will continue to adapt, as 
it has done over the last two centuries, to the challenges and 
opportunities that accompany technological advancements in our 
operating environment.
    Thank you for the opportunity to testify today, and thank you for 
your continued support of the United States Coast Guard. I am pleased 
to answer your questions.

    Mrs. Miller. Thank you very much.
    The Chair now recognizes Mr. Wilshusen for his testimony.

   STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION 
     SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Chairman Miller, Ranking Member Vela, and 
Members of the subcommittee, thank you for inviting me to 
testify today at today's hearing on cybersecurity risks facing 
our Nation's maritime facilities.
    As you know, maritime ports are an essential part of the 
United States transportation critical infrastructure and handle 
more than $1.3 trillion of cargo each year. A major disruption 
in the maritime transportation system could have a significant 
impact on global shipping, international trade, and our 
National economy.
    Today I will summarize GAO's report on maritime port 
cybersecurity that we issued back in June 2014. The report 
addresses cyber-related threats facing our Nation's ports and 
the steps the U.S. Coast Guard and other stakeholders had taken 
to address cyber risks. But before I began, Madam Chairman, if 
I may, I would like to recognize several teammates who were 
instrumental in developing my statement and conducting the work 
underpinning it. Mike Gilmore, who is with me today, is an 
assistant director and led this engagement; along with Brad 
Becker; and Kush Malhotra. Lee McCracken, Jennifer Bryant, and 
Scott Pettis also made significant contributions to this 
effort.
    Madam Chairman, our Nation and its ports face an evolving 
array of cyber-based threats. The increasing dependence of port 
activities on computerized information and communication 
systems to manage the movement of cargo makes them vulnerable 
to many of the same threats facing other cyber-reliant critical 
infrastructure. These threats include both targeted and 
untargeted exploits from a variety of sources, including 
criminal groups, nation-states, and state-sponsored entities, 
and disgruntled insiders. By exploiting vulnerabilities in 
information and communication technology supporting port 
operations, cyber adversaries can potentially disrupt the flow 
of commerce, endanger public safety, and facilitate the theft 
of valuable cargo.
    In June 2014, we reported that the Coast Guard and other 
stakeholders had taken limited steps to address cybersecurity 
at selected ports. Specifically, the Coast Guard had not 
included cyber-related risks in its 2012 biannual assessment of 
risk to the maritime environment. Maritime security plans 
required by law and regulation generally contained very limited 
information on cyber threats and vulnerabilities because the 
guidance issued by the Coast Guard did not require cyber 
elements to be addressed.
    In addition, the Coast Guard helped to establish 
information-sharing mechanisms. But one of them, a maritime 
sector coordinating council comprised of private-sector 
stakeholders, disbanded in 2011, eliminating a National-level 
forum for sharing and coordinating information on port 
security. We also reported that the Federal Emergency 
Management Agency, or FEMA, identified enhancing cybersecurity 
capabilities as a priority for its Port Security Grant program. 
However, its grant review process was not informed by Coast 
Guard cybersecurity expertise, thereby increasing the risks 
that the grants were not allocated to projects that would 
effectively enhance port security.
    In our 2014 report, we recommended that the Coast Guard 
include cyber risks in its updated risk assessment for the 
maritime environment, address cyber risks in its guidance for 
maritime security plans, and consider reestablishing the sector 
coordinating council. We also recommended that FEMA ensure 
funding decisions for its Port Security Grant Program are 
informed by cybersecurity expertise and a comprehensive risk 
assessment.
    DHS concurred with our recommendations. Since our report 
was issued in 2014, the Coast Guard and FEMA have taken actions 
to partially implement two of our recommendations. In summary, 
protecting our maritime ports from cyber-based threats is of 
increasing importance. While the Coast Guard and FEMA have 
taken steps, more needs to be done to ensure that the Federal 
and non-Federal stakeholders are working together effectively 
to mitigate these threats. Fully implementing our 
recommendations will help the Coast Guard and FEMA achieve 
this.
    Chairman Miller, Ranking Member Vela, and Members of this 
committee, this concludes my opening statement. I would be 
happy to answer your questions.
    [The prepared statement of Mr. Wilshusen follows:]
               Prepared Statement of Gregory C. Wilshusen
                            October 8, 2015
                             gao highlights
    Highlights of GAO-16-116T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    The Nation's maritime ports handle more than $1.3 trillion in cargo 
each year: A disruption at one of these ports could have a significant 
economic impact. Increasingly, port operations rely on computerized 
information and communications technologies, which can be vulnerable to 
cyber-based attacks. Federal entities, including DHS's Coast Guard and 
FEMA, have responsibilities for protecting ports against cyber-related 
threats. GAO has designated the protection of Federal information 
systems as a Government-wide high-risk area since 1997, and in 2003 
expanded this to include systems supporting the Nation's critical 
infrastructure.
    This statement addresses: (1) Cyber-related threats facing the 
maritime port environment and (2) steps DHS has taken to address 
cybersecurity in that environment. In preparing this statement, GAO 
relied on work supporting its June 2014 report on cybersecurity at 
ports. (GAO-14-459)
What GAO Recommends
    In its June 2014 report on port cybersecurity, GAO recommended that 
the Coast Guard include cyber risks in its updated risk assessment for 
the maritime environment, address cyber risks in its guidance for port 
security plans, and consider reestablishing the sector coordinating 
council. GAO also recommended that FEMA ensure funding decisions for 
its port security grant program are informed by subject-matter 
expertise and a comprehensive risk assessment. DHS has partially 
addressed two of these recommendations since GAO's report was issued.
  maritime critical infrastructure protection.--dhs needs to enhance 
                 efforts to address port cybersecurity
What GAO Found
    Similar to other critical infrastructures, the Nation's ports face 
an evolving array of cyber-based threats. These can come from insiders, 
criminals, terrorists, or other hostile sources and may employ a 
variety of techniques or exploits, such as denial-of-service attacks 
and malicious software. By exploiting vulnerabilities in information 
and communications technologies supporting port operations, cyber 
attacks can potentially disrupt the flow of commerce, endanger public 
safety, and facilitate the theft of valuable cargo.
    In its June 2014 report, GAO determined that the Department of 
Homeland Security (DHS) and other stakeholders had taken limited steps 
to address cybersecurity in the maritime environment. Specifically:
  <bullet> DHS's Coast Guard had not included cyber-related risks in 
        its biennial assessment of risks to the maritime environment, 
        as called for by Federal policy. Specifically, the inputs into 
        the 2012 risk assessment did not include cyber-related threats 
        and vulnerabilities. Officials stated that they planned to 
        address this gap in the 2014 revision of the assessment. 
        However, when GAO recently reviewed the updated risk 
        assessment, it noted that the assessments did not identify 
        vulnerabilities of cyber-related assets, although it identified 
        some cyber threats and their potential impacts.
  <bullet> The Coast Guard also did not address cyber-related risks in 
        its guidance for developing port area and port facility 
        security plans. As a result, port and facility security plans 
        that GAO reviewed generally did not include cyber threats or 
        vulnerabilities. While Coast Guard officials noted that they 
        planned to update the security plan guidance to include cyber-
        related elements, without a comprehensive risk assessment for 
        the maritime environment, the plans may not address all 
        relevant cyber threats and vulnerabilities.
  <bullet> The Coast Guard had helped to establish information-sharing 
        mechanisms called for by Federal policy, including a sector 
        coordinating council, made up of private-sector stakeholders, 
        and a Government coordinating council, with representation from 
        relevant Federal agencies. However, these bodies shared 
        cybersecurity-related information to a limited extent, and the 
        sector coordinating council was disbanded in 2011. Thus, 
        maritime stakeholders lacked a National-level forum for 
        information sharing and coordination.
  <bullet> DHS's Federal Emergency Management Agency (FEMA) identified 
        enhancing cybersecurity capabilities as a priority for its port 
        security grant program, which is to defray the costs of 
        implementing security measures. However, FEMA's grant review 
        process was not informed by Coast Guard cybersecurity subject-
        matter expertise or a comprehensive assessment of cyber-related 
        risks for the port environment. Consequently, there was an 
        increased risk that grants were not allocated to projects that 
        would most effectively enhance security at the Nation's ports.
    GAO concluded that until DHS and other stakeholders take additional 
steps to address cybersecurity in the maritime environment--
particularly by conducting a comprehensive risk assessment that 
includes cyber threats, vulnerabilities, and potential impacts--their 
efforts to help secure the maritime environment may be hindered. This 
in turn could increase the risk of a cyber-based disruption with 
potentially serious consequences.
    Chairman Miller, Ranking Member Vela, and Members of the 
Subcommittee: Thank you for inviting me to testify at today's hearing 
on the risks of cyber attacks facing our Nation's maritime facilities. 
As you know, maritime ports are an essential part of the United States' 
transportation critical infrastructure. They are an economic engine 
that handles more than $1.3 trillion in cargo each year. A major 
disruption in the maritime transportation system could have a 
significant impact on global shipping, international trade, and the 
global economy, as well as posing risks to public safety. This risk is 
heightened by ports' dependence on computer-reliant information and 
communication systems that may be vulnerable to cyber threats from 
various actors with malicious intent. Because of the increasing 
prevalence of cyber threats, since 1997 we have designated Federal 
information security as a Government-wide high-risk area, and in 2003 
we expanded this to include the protection of systems supporting our 
Nation's critical infrastructure.\1\
---------------------------------------------------------------------------
    \1\ GAO's biennial high-risk list identifies Government programs 
that have greater vulnerability to fraud, waste, abuse, and 
mismanagement or need to address challenges to economy, efficiency, or 
effectiveness. See most recently, GAO, High-Risk Series: An Update, 
GAO-15-290 (Washington, DC: Feb. 11, 2015).
---------------------------------------------------------------------------
    In my statement today, I will summarize the results of a report we 
issued in June 2014 on the extent to which the Department of Homeland 
Security (DHS) and other stakeholders have addressed cybersecurity in 
the maritime port environment.\2\ Specifically, I will discuss: (1) 
Cyber-related threats facing the maritime port environment and (2) 
steps DHS and other stakeholders have taken to address cyber risks in 
the maritime environment, as well as provide updates on actions DHS has 
taken to implement recommendations we made in our report. More detailed 
information on our objective, scope, and methodology for that work can 
be found in the issued report.
---------------------------------------------------------------------------
    \2\ GAO, Maritime Critical Infrastructure Protection: DHS Needs to 
Better Address Port Cybersecurity, GAO-14-459 (Washington, DC: June 5, 
2014).
---------------------------------------------------------------------------
    The work on which this testimony is based was conducted in 
accordance with generally-accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
    The United States has approximately 360 commercial sea and river 
ports that handle more than $1.3 trillion in cargo annually. A wide 
variety of goods travels through these ports each day--including 
automobiles, grain, and millions of cargo containers. While no two 
ports are exactly alike, many share certain characteristics such as 
their size, proximity to a metropolitan area, the volume of cargo they 
process, and connections to complex transportation networks. These 
characteristics can make them vulnerable to physical security threats.
    Moreover, entities within the maritime port environment are 
vulnerable to cyber-based threats because they rely on various types of 
information and communications technologies to manage the movement of 
cargo throughout the ports. These technologies include:
  <bullet> terminal operating systems, which are information systems 
        used to, among other things, control container movements and 
        storage;
  <bullet> industrial control systems, which facilitate the movement of 
        goods using conveyor belts or pipelines to structures such as 
        refineries, processing plants, and storage tanks;
  <bullet> business operations systems, such as e-mail and file 
        servers, enterprise resources planning systems, networking 
        equipment, phones, and fax machines, which support the business 
        operations of the terminal; and
  <bullet> access control and monitoring systems, such as camera 
        surveillance systems and electronically-enabled physical access 
        control devices, which support a port's physical security and 
        protect sensitive areas.
    All of these systems are potentially vulnerable to cyber-based 
attacks and other threats, which could disrupt operations at a port.
Federal Policies and Laws Establish Requirements and Responsibilities 
        for Protecting Maritime Critical Infrastructure
    While port owners and operators are responsible for the 
cybersecurity of their operations, Federal agencies have specific roles 
and responsibilities for supporting these efforts. The National 
Infrastructure Protection Plan (NIPP) establishes a risk management 
framework to address the risks posed by cyber, human, and physical 
elements of critical infrastructure. It details the roles and 
responsibilities of DHS in protecting the Nation's critical 
infrastructures; identifies agencies that have lead responsibility for 
coordinating with Federally-designated critical infrastructure sectors 
(maritime is a component of one of these sectors--the transportation 
sector); and specifies how other Federal, State, regional, local, 
Tribal, territorial, and private-sector stakeholders should use risk-
management principles to prioritize protection activities within and 
across sectors.
    The NIPP establishes a framework for operating and sharing 
information across and between Federal and non-Federal stakeholders 
within each sector. These coordination activities are carried out 
through sector-coordinating councils and Government-coordinating 
councils. Further, under the NIPP, each critical infrastructure sector 
is to develop a sector-specific plan that details the application of 
the NIPP risk management framework to the sector. As the sector-
specific agency for the maritime mode of the transportation sector, the 
Coast Guard is to coordinate protective programs and resilience 
strategies for the maritime environment.
    Further, Executive Order 13636, issued in February 2013, calls for 
various actions to improve the cybersecurity of critical 
infrastructure.\3\ These include developing a cybersecurity framework; 
increasing the volume, timeliness, and quality of cyber threat 
information shared with the U.S. private sector; considering 
prioritized actions within each sector to promote cybersecurity; and 
identifying critical infrastructure for which a cyber incident could 
have a catastrophic impact.
---------------------------------------------------------------------------
    \3\ Exec. Order No. 13,636, 78 Fed. Reg. 11,739 (Feb. 19, 2013).
---------------------------------------------------------------------------
    More recently, the Cybersecurity Enhancement Act of 2014 \4\ 
further refined public-private collaboration on critical infrastructure 
cybersecurity by authorizing the National Institute of Standards and 
Technology to facilitate and support the development of a voluntary set 
of standards, guidelines, methodologies, and procedures to cost-
effectively reduce cyber risks to critical infrastructure.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 113-274 (Dec. 18, 2014).
---------------------------------------------------------------------------
    In addition to these cyber-related policies and law, there are laws 
and regulations governing maritime security. One of the primary laws is 
the Maritime Transportation Security Act of 2002 (MTSA) \5\ which, 
along with its implementing regulations developed by the Coast Guard, 
requires a wide range of security improvements for the Nation's ports, 
waterways, and coastal areas. DHS is the lead agency for implementing 
the act's provisions, and DHS component agencies, including the Coast 
Guard and the Federal Emergency Management Agency (FEMA), have specific 
responsibilities for implementing the act.
---------------------------------------------------------------------------
    \5\ Pub. L. No. 107-295 (Nov. 25, 2002).
---------------------------------------------------------------------------
    To carry out its responsibilities for the security of geographic 
areas around ports, the Coast Guard has designated a captain of the 
port within each of 43 geographically-defined port areas. The captain 
of the port is responsible for overseeing the development of the 
security plans within each of these port areas. In addition, maritime 
security committees, made up of key stakeholders, are to identify 
critical port infrastructure and risks to the port areas, develop 
mitigation strategies for these risks, and communicate appropriate 
security information to port stakeholders. As part of their duties, 
these committees are to assist the Coast Guard in developing port area 
maritime security plans. The Coast Guard is to develop a risk-based 
security assessment during the development of the port area maritime 
security plans that considers, among other things, radio and 
telecommunications systems, including computer systems and networks 
that may, if damaged, pose a risk to people, infrastructure, or 
operations within the port.
    In addition, under MTSA, owners and operators of individual port 
facilities are required to develop facility security plans to prepare 
certain maritime facilities, such as container terminals and chemical 
processing plants, for deterring a transportation security incident. 
The implementing regulations for these facility security plans require 
written security assessment reports to be included with the plans that, 
among other things, contain an analysis that considers measures to 
protect radio and telecommunications equipment, including computer 
systems and networks.
    MTSA also codified the Port Security Grant Program, which is to 
help defray the costs of implementing security measures at domestic 
ports. Port areas use funding from this program to improve port-wide 
risk management, enhance maritime domain awareness, and improve port 
recovery and resilience efforts through developing security plans, 
purchasing security equipment, and providing security training to 
employees. FEMA is responsible for administering this program with 
input from Coast Guard subject-matter experts.
 the nation and its ports face an evolving array of cyber-based threats
    Like threats affecting other critical infrastructures, threats to 
the maritime IT infrastructure are evolving and growing and can come 
from a wide array of sources. Risks to cyber-based assets can originate 
from unintentional or intentional threats. Unintentional threats can be 
caused by, among other things, natural disasters, defective computer or 
network equipment, software coding errors, and careless or poorly-
trained employees. Intentional threats include both targeted and 
untargeted attacks from a variety of sources, including criminal 
groups, hackers, disgruntled insiders, foreign nations engaged in 
espionage and information warfare, and terrorists.
    These adversaries vary in terms of their capabilities, willingness 
to act, and motives, which can include seeking monetary gain or 
pursuing a political, economic, or military advantage. For example, 
adversaries possessing sophisticated levels of expertise and 
significant resources to pursue their objectives--sometimes referred to 
as ``advanced persistent threats''--pose increasing risks. They make 
use of various techniques--or exploits--that may adversely affect 
Federal information, computers, software, networks, and operations, 
such as a denial of service, which prevents or impairs the authorized 
use of networks, systems, or applications.
    Reported incidents highlight the impact that cyber attacks could 
have on the maritime environment, and researchers have identified 
security vulnerabilities in systems aboard cargo vessels, such as 
global positioning systems and systems for viewing digital nautical 
charts, as well as on servers running on systems at various ports.
    In some cases, these vulnerabilities have reportedly allowed 
hackers to target ships and terminal systems. Such attacks can send 
ships off course or redirect shipping containers from their intended 
destinations. For example, according to Europol's European Cybercrime 
Center, a cyber incident was reported in 2013 (and corroborated by the 
FBI) in which malicious software was installed on a computer at a 
foreign port. The reported goal of the attack was to track the movement 
of shipping containers for smuggling purposes. A criminal group used 
hackers to break into the terminal operating system to gain access to 
security and location information that was leveraged to remove the 
containers from the port.
   dhs and other stakeholders have taken limited actions to address 
                      maritime port cybersecurity
    In June 2014 we reported that DHS and the other stakeholders had 
taken limited steps with respect to maritime cybersecurity.\6\ In 
particular, risk assessments for the maritime mode did not address 
cyber-related risks; maritime-related security plans contained limited 
consideration of cybersecurity; information-sharing mechanisms shared 
cybersecurity information to varying degrees; and the guidance for the 
Port Security Grant Program did not take certain steps to ensure that 
cyber risks were addressed.
---------------------------------------------------------------------------
    \6\ GAO-14-459.
---------------------------------------------------------------------------
Maritime Risk Assessment Did Not Address Cybersecurity
    In its 2012 National Maritime Strategic Risk assessment, which was 
the most recent available at the time of our 2014 review, the Coast 
Guard did not address cyber-related risks to the maritime mode. As 
called for by the NIPP, the Coast Guard completes this assessment on a 
biennial basis, and it is to provide a description of the types of 
threats the Coast Guard expects to encounter within its areas of 
responsibility, such as ensuring the security of port facilities, over 
the next 5 to 8 years. The assessment is to be informed by numerous 
inputs, such as historical incident and performance data, the views of 
subject-matter experts, and risk models, including the Maritime 
Security Risk Analysis Model, which is a tool that assesses risk in 
terms of threat, vulnerability, and consequences.
    However, we found that while the 2012 assessment contained 
information regarding threats, vulnerabilities, and the mitigation of 
potential risks in the maritime environment, none of the information 
addressed cyber-related risks or provided a thorough assessment of 
cyber-related threats, vulnerabilities, and potential consequences. 
Coast Guard officials attributed this gap to limited efforts to develop 
inputs related to cyber threats to inform the risk assessment. For 
example, the Maritime Security Risk Analysis Model did not contain 
information related to cyber threats. The officials noted that they 
planned to address this deficiency in the next iteration of the 
assessment, which was to be completed by September 2014, but did not 
provide details on how cybersecurity would be specifically addressed.
    We therefore recommended that DHS direct the Coast Guard to ensure 
that the next iteration of the maritime risk assessment include cyber-
related threats, vulnerabilities, and potential consequences. DHS 
concurred with our recommendation, and the September 2014 version of 
the National Maritime Strategic Risk Assessment identifies cyber 
attacks as a threat vector for the maritime environment and assigns 
some impact values to these threats. However, the assessment does not 
identify vulnerabilities of cyber-related assets. Without fully 
addressing threats, vulnerabilities, and consequences of cyber 
incidents in its assessment, the Coast Guard and its sector partners 
will continue to be hindered in their ability to appropriately plan and 
allocate resources for protecting maritime-related critical 
infrastructure.
Maritime Security Plans' Consideration of Cybersecurity Was Limited
    As we reported in June 2014, maritime security plans required by 
MTSA did not fully address cyber-related threats, vulnerabilities, and 
other considerations. Specifically, three area maritime security plans 
we reviewed from three high-risk port areas contained very limited, if 
any, information about cyber-threats and mitigation activities. For 
example, the three plans included information about the types of 
information and communications technology systems that would be used to 
communicate security information to prevent, manage, and respond to a 
transportation security incident; the types of information considered 
to be sensitive security information; and how to securely handle such 
information. They did not, however, identify or address any other 
potential cyber-related threats directed at or vulnerabilities in these 
systems or include cybersecurity measures that port-area stakeholders 
should take to prevent, manage, and respond to cyber-related threats 
and vulnerabilities.
    Similarly, nine facility security plans from the non-Federal 
organizations we met with during our 2014 review generally had very 
limited cybersecurity information. For example, two of the plans had 
generic references to potential cyber threats, but did not have any 
specific information on assets that were potentially vulnerable or 
associated mitigation strategies. Officials representing the Coast 
Guard and non-Federal entities acknowledged that their facility 
security plans at the time generally did not contain cybersecurity 
information.
    Coast Guard officials and other stakeholders stated that the area 
and facility-level security plans did not adequately address 
cybersecurity because the guidance for developing the plans did not 
require a cyber component. Officials further stated that guidance for 
the next iterations of the plans, which were to be developed in 2014, 
addressed cybersecurity. However, in the absence of a maritime risk 
environment that addressed cyber risk, we questioned whether the 
revised plans would appropriately address the cyber-related threats and 
vulnerabilities affecting the maritime environment.
    Accordingly, we recommended that DHS direct the Coast Guard to use 
the results of the next maritime risk assessment to inform guidance for 
incorporating cybersecurity considerations for port area and facility 
security plans. While DHS concurred with this recommendation, as noted 
above, the revised maritime risk assessment does not address 
vulnerabilities of systems supporting maritime port operations, and 
thus is limited as a tool for informing maritime cybersecurity 
planning. Further, it is unclear to what extent the updated port area 
and facility plans include cyber risks because the Coast Guard has not 
yet provided us with updated plans.
Information-Sharing Mechanisms Varied in Sharing Cybersecurity 
        Information
    Consistent with the private-public partnership model outlined in 
the NIPP, the Coast Guard helped establish various collaborative bodies 
for sharing security-related information in the maritime environment. 
For example, the Maritime Modal Government Coordinating Council was 
established to enable interagency coordination on maritime security 
issues, and members included representatives from DHS, as well as the 
Departments of Commerce, Defense, Justice, and Transportation. Meetings 
of this council discussed implications for the maritime mode of the 
President's Executive order on improving critical infrastructure 
cybersecurity, among other topics.
    In addition, the Maritime Modal Sector Coordinating Council, 
consisting of owners, operators, and associations from within the 
sector, was established in 2007 to enable coordination and information 
sharing. However, this council disbanded in March 2011 and was no 
longer active, when we conducted our 2014 review. Coast Guard officials 
stated that maritime stakeholders had viewed the sector coordinating 
council as duplicative of other bodies, such as area maritime security 
committees, and thus there was little interest in reconstituting the 
council.
    In our June 2014 report, we noted that in the absence of a sector 
coordinating council, the maritime mode lacked a body to facilitate 
National-level information sharing and coordination of security-related 
information. By contrast, maritime security committees are focused on 
specific geographic areas.
    We therefore recommended that DHS direct the Coast Guard to work 
with maritime stakeholders to determine if the sector-coordinating 
council should be reestablished. DHS concurred with this 
recommendation, but has yet to take action on this. The absence of a 
National-level sector coordinating council increases that risk that 
critical infrastructure owners and operators will be unable to 
effectively share information concerning cyber threats and strategies 
to mitigate risks arising from them.
Port Security Grant Program Did Not Take Key Steps to Effectively 
        Address Cyber Risks
    In 2013 and 2014 FEMA identified enhancing cybersecurity 
capabilities as a funding priority for its Port Security Grant Program 
and provided guidance to grant applicants regarding the types of 
cybersecurity-related proposals eligible for funding. However, in our 
June 2014 report we noted that the agency's National review panel had 
not consulted with cybersecurity-related subject-matter experts to 
inform its review of cyber-related grant proposals. This was partly 
because FEMA had downsized the expert panel that reviewed grants. In 
addition, because the Coast Guard's maritime risk assessment did not 
include cyber-related threats, grant applicants and reviewers were not 
able to use the results of such an assessment to inform grant 
proposals, project review, and risk-based funding decisions.
    Accordingly, we recommended that DHS direct FEMA to: (1) Develop 
procedures for grant proposal reviewers, at both the National and field 
level, to consult with cybersecurity subject-matter experts from the 
Coast Guard when making funding decisions, and (2) use information on 
cyber-related threats, vulnerabilities, and consequences identified in 
the revised maritime risk assessment to inform funding guidance for 
grant applicants and reviewers.
    Regarding the first recommendation, FEMA officials told us that 
since our 2014 review, they have consulted with the Coast Guard's Cyber 
Command on high-dollar value cyber projects and that Cyber Command 
officials sat on the review panel for 1 day to review several other 
cyber projects. FEMA officials also provided examples of recent field 
review guidance sent to the captains of the port, including 
instructions to contact Coast Guard officials if they have any 
questions about the review process. However, FEMA did not provide 
written procedures at either the National level or the port area level 
for ensuring that grant reviews are informed by the appropriate level 
of cybersecurity expertise. FEMA officials stated the fiscal year 2016 
Port Security Grant Program guidance will include specific instructions 
for both the field review and National review as part of the cyber 
project review.
    With respect to the second recommendation, since the Coast Guard's 
2014 maritime risk assessment does not include information about cyber 
vulnerabilities, as discussed above, the risk assessment would be of 
limited value to FEMA in informing its guidance for grant applicants 
and reviewers. As a result, we continue to be concerned that port 
security grants may not be allocated to projects that will best 
contribute to the cybersecurity of the maritime environment.
    In summary, protecting the Nation's ports from cyber-based threats 
is of increasing importance, not only because of the prevalence of such 
threats, but because of the ports' role as conduits of over a trillion 
dollars in cargo each year. Ports provide a tempting target for 
criminals seeking monetary gain, and successful attacks could 
potentially wreak havoc on the National economy. The increasing 
dependence of port activities on computerized information and 
communications systems makes them vulnerable to many of the same 
threats facing other cyber-reliant critical infrastructures, and 
Federal agencies play a key role by working with port facility owners 
and operators to secure the maritime environment. While DHS, through 
the Coast Guard and FEMA, has taken steps to address cyber threats in 
this environment, they have been limited and more remains to be done to 
ensure that Federal and non-Federal stakeholders are working together 
effectively to mitigate cyber-based threats to the ports. Until DHS 
fully implements our recommendations, the Nation's maritime ports will 
remain susceptible to cyber risks.
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee, this concludes my prepared statement. I would be pleased 
to answer any questions you may have at this time.

    Mrs. Miller. Thank you very much.
    The Chair now recognizes Mr. Parsons. Again, sir, we 
appreciate you traveling from California to join us today.

  STATEMENT OF RANDY D. PARSONS, DIRECTOR, SECURITY SERVICES, 
                 PORT OF LONG BEACH, CALIFORNIA

    Mr. Parsons. Thank you, Madam Chair.
    I appreciate the opportunity to provide some information 
this morning from an operations perspective. As you mentioned, 
the Port of Long Beach is the second-busiest seaport in the 
United States. Combined with our neighbor adjacent, the Port of 
Los Angeles, we handled over 15 million cargo containers in 
2014. That represents over 40 percent of the imported cargo to 
the United States. Partly in effort to protect the diverse and 
large environment that we have, we operate the Joint Command 
and Control Center, which is a 24/7 operation. It provides 
domain awareness to all of our partners, Government and private 
sector, and is the hub for critical incident management. The 
coordination center houses over $100 million in technical 
security assets.
    But we know the port authorities aren't the only target and 
possibly not the primary target for cybersecurity threats. 
Private-sector business entities, such as the terminal 
operators, control a substantial portion of the economic 
movement through our ports. The potential perpetrators and the 
threats, as you mentioned and as the admiral alluded to, aren't 
very unique to the maritime environment. We have threats to the 
port that are a danger to humans as well as catastrophic 
economic damage. We have workers. We have visitors. Both ports 
are housed in a densely-populated metropolitan area. Taking 
into account the dangerous nature of the persons--and the Port 
of Long Beach supports 30,000 jobs in the immediate area and 
1.4 million jobs Nation-wide--an impact to a complex the size 
of Long Beach and Los Angeles could impact our National well-
being. There are a number of challenges that we face in the 
maritime environment for cybersecurity.
    There is not a one-size-fits-all solution for all ports. 
The business models for ports vary based on the size of the 
ports, the nature of the business that goes through the ports 
and, frankly, how they are governed. Long Beach is a landlord 
port. We have very little input into the security posture of 
our tenants. Other ports are operators of ports and are better 
postured to make recommendations and requirements.
    A challenge is a lack of awareness about our own systems. 
Sometimes systems are a patchwork of legacy systems. They are 
often operated or administered by folks with different purposes 
and a myopic focus on their required specific functions. This 
creates a lack of enterprise perspective or awareness for the 
cybersecurity problem. There is a notable reluctance to share 
information about cybersecurity issues. To acknowledge a 
cybersecurity event could potentially mean a loss of business 
reputation and public trust. Much of the information for 
maritime stakeholders is deemed as proprietary to the degree 
that dissemination could create business disadvantage.
    There is a need to clearly identify roles and 
responsibilities of the various Government agencies involved in 
cybersecurity. The Ports of Long Beach and Los Angeles have 
been contacted and have worked with the United States Coast 
Guard, the FBI, Secret Service, and multiple entities of the 
Department of Homeland Security. We have tried to use 
incentives at our port to generate buy-in. We have done that 
successfully with our Green Port Program and our Clean Trucks 
Policy.
    Now, FEMA has incentivized, to a degree, cybersecurity 
matters by emphasizing cybersecurity mitigation and 
vulnerability assessments in the recent grant year. We agree 
that subject-matter experts need to have continued input into 
those grant awards. The spending has increased as a result of 
that, but it is imperative that FEMA maintain a focus on 
strategic thought and the current and developing regulations. 
We support the efforts of the Coast Guard in their expanded 
mission to enhance security. But we realize that has created a 
specialized mission requirement that requires additional 
funding. We believe that protecting U.S. ports must be a core 
capability of our Nation. We realize, as everyone does, we 
cannot stop all attacks. But focusing on the development of 
strategic policies and guidelines is sorely needed. A roadmap 
that provides guidance but flexibility for industry decisions 
makes sense and will strengthen our National security 
cybersecurity posture. Thank you for the opportunity.
    [The prepared statement of Mr. Parsons follows:]
                 Prepared Statement of Randy D. Parsons
                            October 8, 2015
    Chairman and Members of the committee. My name is Randy Parsons and 
I am the director of security services for the Port of Long Beach, in 
California. Thank you for the opportunity to speak before the House 
Homeland Security Committee to discuss cybersecurity in the maritime 
environment from a field operations perspective, especially during 
October, National Cybersecurity Awareness Month.
                               background
    As the second-busiest seaport in the United States, the Port of 
Long Beach is a major gateway for U.S.-Asia trade and a recognized 
leader in security. The Port is an innovative provider of state-of-the-
art seaport facilities and services that enhance economic vitality, 
support jobs, and improve the quality of life and the environment. A 
major economic force, the Port supports more than 30,000 jobs in Long 
Beach, 316,000 jobs throughout Southern California and 1.4 million jobs 
throughout the United States. In 2014, the Port of Long Beach moved 
over 6.8 million 20-foot equivalent units (TEUs) of cargo, also known 
as containers. In August of this year, we experienced the highest 
volume of cargo in the Port's 104-year history.
    Combined with our neighbor, the Port of Los Angeles, both ports 
comprise the San Pedro Bay Complex, the largest port complex in the 
Nation and the ninth-largest port complex in the world. Both ports 
moved over 15 million TEUs in 2014, which accounts for over 40 percent 
of the Nation's imported cargo. A 2010 report commissioned by the two 
ports and the Alameda Corridor Transportation Authority found that 
cargo moving through the San Pedro Bay Port Complex made its way to 
every Congressional district in the continental United States. As a 
result of the sheer volume of cargo moved throughout the port complex 
and transportation-related activities, protecting the San Pedro Bay 
Ports is vital to our National economic and security interests.
                                security
    Safety and security are top priorities at the Port of Long Beach. 
Since September 11, 2001, the Port along with the other Government 
agencies responsible for security, have greatly expanded their efforts 
to protect the Port complex and surrounding communities. The Port takes 
a leadership role in the development of strategies to mitigate security 
risks in the San Pedro Bay, working closely with multiple partners, 
both public and private, to plan and coordinate security measures. My 
professional experience has been in recognizing threat situations and 
trying to formulate the best mitigation strategies. I have made 
observations, learned lessons from our own port operations and through 
contact with other local port partners, other ports, and transportation 
agencies.
    The Port's Joint Command and Control Center, a 24-hour-a-day 
maritime domain awareness (monitoring) center, is a critical hub for 
coordinated security efforts that include partnerships with local, 
State, and Federal law enforcement agencies as well as maritime and 
private-sector stakeholders. The Port of Long Beach has formalized 
agreements with these partners to share security information, 
coordinate threat information, develop plans, and coordinate 
operations.
    The Control Center houses over $100 million in technical security 
assets. Through innovative efforts, the Port has a monitoring network 
of over 400 cameras, a comprehensive fiber-optic network, a port-wide 
wireless system, an integrated security management system for 
synchronized monitoring and quick threat detection, access control and 
alarm monitoring, boat patrols, radar systems, a vessel tracking 
system, and sonar equipment. Law enforcement operations within the Port 
have been fully integrated between the Port of Long Beach Harbor Patrol 
and the Long Beach Police Department.
                             cybersecurity
    In 21st Century America, the Port of Long Beach, like many if not 
all organizations, relies heavily on information technology. The Port 
relies on information technology to operate the business of the port, 
as well as to secure the port complex and its assets. The maritime 
sector, like other industries are at risk for cyber attack, in part 
because ports are National economic drivers, and therefore are National 
critical infrastructures. That is why, in addition to the above water, 
on water, and underwater security monitoring and threat detection, 
cybersecurity has become a critical endeavor for the Port.
    Port business operations and port authorities are not the only 
targets. Private-sector business entities, such as terminal operators, 
control a substantial portion of the economic movement through a wide 
variety of facilities. In the San Pedro Bay Ports complex, major cyber 
threat areas include port facilities, shippers, vessels, terminal 
operating systems, equipment, storage facilities, rail, and truck 
operations. Potential perpetrators who could carry out cyber attacks 
include State-sponsored, criminal groups, and individuals, either 
inadvertent or intentional. Threats to the maritime environment include 
hacking, jamming, phishing, spoofing, malicious programs, taking 
control, and denial of service. On average, the Port of Long Beach's 
Information Management staff reports' thwarting 1 million hacking 
attempts a day. Some of the motivating factors for cyber criminal 
activities may involve smuggling, cyber extortion, gaining business 
advantage, intellectual property theft, and disrupting or destroying a 
National critical infrastructure. In addition to man-made cyber 
threats, the maritime sector is also susceptible to natural hazards 
such as earthquakes, hurricanes, and tsunamis.
    Cyber threats do not necessarily target people to cause injuries 
and/or death, as with more traditional forms of terrorism. However, 
threats to ports are dangerous to the large number of workers, 
travelers, and visitors in and around the port community. Coupled with 
the potential catastrophic economic impacts, maritime cyber events 
could impact our National well-being as much, if not more, than other 
types of attacks. Large-scale, multi-pronged attacks in the cyber world 
will require a certain level of technical knowledge. However the 
logistics involved in cyber attacks may not rise to the level that was 
required for the September 11 attacks. Cyber attacks on such a large 
scale would create fear, instability, disrupt the normal way of life 
and business, and generate a lack of confidence in our Government's 
ability to protect us. These are some of the same goals of more 
``traditional'' terrorist acts. As a result, the maritime sector must 
adapt to a new threat environment as we have done constantly since the 
September 11 attacks.
    It may seem overdramatic to make a comparison to the September 11 
attacks, but one similarity may be in the number of cyber attacks that 
have taken place internationally and within the United States, as well 
as our responses, or lack of, to those warnings. As a result, business 
resiliency has become a critical part of our on-going cybersecurity 
plan. Reducing the potential for single-point failure, building 
redundancy into systems, and developing back-up processes are vital to 
ensuring ports remain viable and resume operations as swiftly as 
possible in the event of an incident. Response and recovery are 
critical to successful mitigation and business resumption. Protocols 
must be clear on how to best contain an incident to prevent further 
interruption. Response teams must have specialized training and be 
prepared to engage 24/7. Protocols should include who receives notice 
of the event and what additional assets are available to assist. In a 
port environment, resiliency involves the ability of the logistics 
chain (public or private) to absorb the impact of business interruption 
caused by stress to the system (natural or man-made) and continue to 
provide an acceptable level of goods movement. In order to develop a 
comprehensive resiliency plan to address cybersecurity, factors that 
should be addressed include infrastructure needs and protection, 
transportation systems, and development of business continuity plans.
                               challenges
    There are a number of challenges that must be addressed to enhance 
cybersecurity in maritime environments. There is not a one-size-fits-
all solution because ports are diverse in how their business is 
modeled. A lack of awareness about an organization's own systems 
creates opportunities for exploitation at a basic level. Systems 
themselves can be a patchwork of legacy systems, some integrated with 
newer technologies. Cyber systems can be administered by operators with 
different purposes and a myopic focus on only their required function 
(i.e. engineers, information technology, trade, human resources, and 
security). This creates a lack of an enterprise view of operations, 
which can lead to the ``siloing'' effect. The ``siloing'' effect is not 
an information technology problem, it is a ``culture think'' issue that 
takes effort to divest and generate a unified and collaborative 
perspective. At the Port of Long Beach, there is a continuing effort to 
align the enterprise Information Management function with the special 
needs of the Security Division.
    In the maritime industry, there is a notable reluctance to share 
information about cybersecurity issues. To acknowledge that a cyber 
event has taken place could potentially diminish business reputation 
and public trust. Maritime stakeholders have deemed much of their 
information as proprietary to the degree that dissemination could 
create business disadvantages. Although this is a valid concern, it 
must be measured against the National security impact to a port complex 
like the San Pedro Bay. Not sharing cybersecurity information makes it 
difficult to identify the nature of threats or establish lessons 
learned and best practices to mitigate them.
    There is not a clear or defined role and scope of responsibilities 
for the various Government agencies on the cybersecurity team. It is 
generally understood that, in substantial criminal cyber activity and 
terrorism matters, the Federal Bureau of Investigation (FBI) is the 
lead agency. However, the Ports of Long Beach and Los Angeles along 
with some of the tenants have been contacted by, and have also worked 
with the U.S. Coast Guard, the Secret Service, and multiple entities of 
Department of Homeland Security on cyber matters. Port authorities are 
willing partners in the fight against cyber attacks, however, there are 
requests for access to data from more than one agency. It is 
challenging to understand what type of cyber information is reported to 
which agency and duplicate requests for reporting often occur. This can 
be especially disconcerting for the private-sector entities whose 
proprietary concerns are heightened when multiple releases create more 
opportunity for compromise.
                               incentives
    There seems to be clear recognition that serious cybersecurity 
concerns exist in the business world. However, left to our own devices, 
the business world seems not to be motivated to take the substantial 
action necessary to address those concerns in a strategic and 
collaborative manner. Thought should be given to the Federal Government 
creating incentives for businesses to enhance their cybersecurity 
efforts in a collaborative way. It is recommended that incentives be 
explored based on compliance standards. Uniformed guidelines, 
recommendations, and requirements are needed throughout the maritime 
sector. In order to gain ``buy-in'' from key stakeholders, the Port of 
Long Beach has found that industry incentives have been critical to the 
success of programs like our Green Port Policy and Clean Air Action 
Plan. In general, businesses are reluctant to spend money on efforts 
that are not revenue-generating, even if there is a risk assessment 
indicating mitigation efforts could be revenue-saving.
    The Federal Emergency Management Agency (FEMA) has incentivized 
cybersecurity activities by placing emphasis within the Port Security 
Grant Program (PSGP) on grant applications that focus on cybersecurity 
mitigation. It is important that cybersecurity subject-matter experts 
continue to be involved in the review process for these grant awards. 
It would be ideal to have that expertise engaged with FEMA 
practitioners who ensure decisions on cyber projects, as with all 
projects, continues to be driven by risk-based factors.
    As a result of this grant prioritization, spending on cybersecurity 
has increased. FEMA should ensure that spending is in line with 
strategic thought and prevailing guidelines as they are developed. An 
example of focusing on priority projects has been the PSGP emphasis on 
cyber vulnerability assessments. The Port of Long Beach, Security 
Division is currently undergoing a comprehensive cybersecurity 
vulnerability assessment to enhance our posture. As we look to the 
future and contemplate industry regulations for cybersecurity measures, 
consideration must be given for continuing grant support to assist 
maritime security partners addressing the regulations, particularly if 
the regulations should be mandatory.
    Collaboration between Government and the insurance industry could 
create incentives to protect valuable data identified by risk 
assessment modeling. When certain guidelines or industry standards are 
met, this could be reflected in premium costs. If incentives, and 
potential human and economic losses, are not motivation enough, a 
system of enforceable regulations or requirements may be necessary. 
Determining who would be covered by the rules and regulations is a 
fundamental question that will need to be answered. Specifically, the 
industry is interested in knowing whether the rules will apply only to 
facilities and vessels as with other regulations, or expand to other 
port enterprises.
    The Port of Long Beach, concurs with the American Association of 
Port Authorities recommendation that there be flexibility in how 
policies are implemented to reflect the varying and evolving threat 
environment of similarly-situated ports. For example, U.S. ports can be 
either operators of a port or landlords with minimal input into 
operations. There are varying models of governance for ports that 
directly affect how port authorities interact with port partners like 
terminal operators, railroads, trucking companies, and shipping lines.
                     national cybersecurity policy
    The Port of Long Beach supports efforts for the U.S. Coast Guard to 
realize their new mission to lead the effort in enhancing cybersecurity 
in the maritime environment. The U.S. Coast Guard and the Captains of 
the Port are in the best position to facilitate and coordinate the 
drafting of regulations, cybersecurity awareness programs, 
vulnerability assessments, training, clarification of roles and 
responsibilities, exercises, and information sharing. In this role, the 
U.S. Coast Guard can provide a strategic view for cybersecurity in a 
maritime environment, identify lessons learned and best practices, and 
coordinate efforts among port industry stakeholders.
    The U.S. Coast Guard focus on cybersecurity in the maritime sector 
has created a need for specialized mission requirements. Those 
requirements must be supported through adequate funding for the U.S. 
Coast Guard to develop and acquire subject-matter experts and equipment 
to deliver meaningful guidance to ports around the country. Valuable 
guidance has been provided by the National Institute of Standards and 
Technology's (NIST) Framework for Improving Critical Infrastructure 
Cybersecurity. Coordination between NIST and the Coast Guard will 
continue to lead the way in formulating the strategies required for a 
more comprehensive National cybersecurity posture. There should not be 
one-size-fits-all approach to managing cybersecurity risk because each 
port or logistics partner will experience different threats and 
vulnerabilities, as well as have different capabilities to address 
them.
                               solutions
    Solutions to these cybersecurity challenges exist. All entities 
must take inventory and identify their own systems and capabilities. 
This includes identifying employee and contractor access and duties to 
port facilities and information systems. In assessing impacts, it has 
been identified that people cause the most damage. Once cyber 
operations are understood on an enterprise scale, systems and protocols 
can be organized to promote cybersecurity throughout the organization. 
Legacy systems can be evaluated for updating to meet today's, and more 
importantly, tomorrow's cybersecurity needs.
    The next step in achieving awareness is to have a comprehensive 
vulnerability assessment conducted by subject-matter experts. It is 
critical to identify and prioritize gaps that could lead to 
interruptions effecting key operations. The Port of Long Beach, 
Security Division is undergoing a comprehensive assessment; it will be 
the third such assessment in 3 years.
    Cybersecurity training and educational programs must be robust and 
continual. Training should include prevention, detection, response, and 
recovery efforts and procedures. Presentations are more meaningful if 
they contain real-world incidents and reporting. Case studies and 
examples are particularly valuable when they focus on lessons learned 
and best practices. System operators need to know what a potential 
cyber incident looks like and how it behaves. This type of training 
provides awareness for port industry leaders and employees to create a 
``See Something/Say Something,'' environment in the cyber arena. The 
benefits received from a collaborative environment promote information 
sharing.
    Another layer to cyber preparedness is conducting tests, drills, 
and exercises, as with other critical or emergency situations. In 2014, 
the Port of Los Angeles hosted a large, multi-agency, full-field 
cybersecurity exercise. Lessons were learned from integrating cyber 
threats with real-world operations. Drills and exercises for 
cybersecurity teams should be commonplace and testing of all employees 
should happen throughout the year, not just during Cybersecurity Month 
in October.
    When cyber events occur, decisions must be driven by information. 
Collaboration that produces an environment of sharing information will 
include balancing the need to protect propriety information with 
protecting our National critical infrastructures. The city of Los 
Angeles created a Cybersecurity Fusion Center to facilitate the 
exchange of cyber information, and the Ports of Long Beach and Los 
Angeles both have access. The Port of Long Beach takes pride in being 
led by our Information Management Division in being recognized as 
National Cyber Security Alliance--Cyber Security Champion since 2010. 
The Port also participates in the San Pedro Bay Cyber Working Group and 
the Critical Infrastructure Partnership Advisory Council. The U.S. 
Coast Guard, Sector Los Angeles/Long Beach, Area Maritime Security 
Committee has approved a Cyber Security Subcommittee and we look 
forward to its launch and being an active participant.
    Information sharing can be facilitated by clarifying roles and 
responsibilities for all cybersecurity players including local, State, 
Federal governments and private sector. This clarification must be 
shared with the entire maritime community. When an event is detected, 
proper notifications must be made, mitigation efforts are initiated, 
and an investigation may begin. Agency responsibilities may differ for 
each of these tasks and that must be understood by all. Likewise, lines 
of communication should be clear about who will analyze the information 
and identify potential perpetrators, techniques, and patterns or 
trends. If these efforts generate information of value, it must also be 
determined which agency disseminates the information and how it is 
disseminated.
    The reporting of cybersecurity-related information has not been a 
two-way flow of information sharing, it has mainly been the maritime 
sector providing information to Federal Government agencies. There 
should be a concerted effort to evaluate and identify information that 
can be released to the proper audience to keep them ``in-the-loop.'' 
This feedback is critical for identifying lessons learned, best 
practices, and foster the critical sharing relationship. One bright 
spot has been the collaboration between the ports of Long Beach and Los 
Angeles and the FBI's Cyberhood Watch Program. This is a program where 
cyber information is shared by port partners, including private-sector 
partners, with the FBI. The FBI analyzes the data for suspicious 
behaviors and the results are shared back with the contributors and all 
partners in the program. The FBI will also take further investigative 
steps when warranted.
                               conclusion
    It is important to recognize that while we vigorously try, we 
cannot stop all attacks. Protecting U.S. ports must be a core 
capability of our Nation. There seems to be either high-level 
discussion about cybersecurity or fragmented tactical level technical 
detail. Focusing on the development of strategic policies and 
guidelines is sorely needed. A road map that provides guidance and 
flexibility for industry decisions makes sense and will strengthen our 
National cybersecurity posture.
    Thank you for the opportunity to address you on behalf of the Port 
of Long Beach. I would be pleased to take any questions.

    Mrs. Miller. Thank you very much.
    The Chair now recognizes Mr. Sawicki. Again, we appreciate 
you traveling from Texas to join us, sir.

  STATEMENT OF JONATHAN SAWICKI, SECURITY IMPROVEMENT PROGRAM 
       MANAGER, PORTS OF BROWNSVILLE AND HARLINGEN, TEXAS

    Mr. Sawicki. Thank you very much.
    Madam Chairman, distinguished Members of the committee, and 
Members of the audience, my name is John Sawicki. I was asked 
to testify today based upon experience gained while serving as 
a security improvement program manager for the Ports of 
Brownsville and Harlingen, Texas. I am humbled and honored to 
be here today to share with you this experience, as well as my 
own opinions on the status of cybersecurity in our port 
communities. Today, I would like to focus on the importance of 
risk-based, strategic planning and how cyber risk is a critical 
component within that approach. I would like to share with the 
committee information on recent efforts to manage cyber risk in 
the maritime domain and will provide brief comments on the 
Coast Guard's cybersecurity strategy, as well as provide some 
general recommendations for consideration.
    My hope today is that once we all leave here, the Members 
of the subcommittee, the audience, and my fellow witnesses are 
better equipped to make informed risk-based decisions when 
implementing cybersecurity and resiliency strategies. The 
bombing of the U.S.S. Cole and September 11 attacks on our 
country made it clear that we had to increase our level of 
homeland security Nation-wide. Just as how we travel by air has 
changed, the way we conduct maritime commerce has also changed.
    We need to understand, we all know that there are capable 
and motivated threats out there for cyber and for physical 
security. We must implement risk-based strategies. To mitigate 
against some of these physical security threats, in 2002, the 
Port of Brownsville established a sworn police department 
responsible for not only enforcing laws and providing public 
safety but for implementing programs and measures to protect 
port infrastructure and maintain compliance with the MTSA. In 
2007, the port conducted a comprehensive threat assessment, 
which was closely followed by a port-wide strategic risk-
management plan in 2008.
    While not required of the Port of Brownsville, this plan 
has been a critical component to our success with the Port 
Security Grant Program, securing over $14 million in funds for 
physical security enhancement projects. Currently, the port is 
in the process of updating this initial port-wide strategic 
risk management plan with an additional focus on industrial 
hazards and cybersecurity. A strategic risk-based approach to 
managing the threats and hazards at the Port of Brownsville has 
resulted in a safer and more secure environment within which 
commerce can be conducted.
    Cybersecurity, Port of Brownsville. Using the NIST 
Cybersecurity Framework as a guide, the Port of Brownsville 
recently conducted a cybersecurity assessment to identify 
critical systems, evaluate current cybersecurity posture, 
establish a target state for cybersecurity, and identify and 
prioritize opportunities for improvements. The timing of this 
assessment was optimal, as the port had recently hired its 
first IT manager and was in the process of performing 
significant upgrades to existing communication systems, port 
management systems, and general operating systems.
    The result of this cybersecurity assessment indicated 
opportunities for improvement in all five cybersecurity 
functions: Identify, protect, detect, respond, and recover. 
Using the results of this assessment, the port prepared and 
submitted a grant application through the fiscal year 2015 Port 
Security Grant Program. Unfortunately, the project was not 
funded. Even though it was not funded, the port strives to 
improve our cybersecurity posture and, even though at a slower 
pace, is doing so.
    Comments on the U.S. Coast Guard strategy. In general, I 
support the U.S. Coast Guard's vision for operating in the 
cyber domain and the three primary priorities of defending 
cyber space, enabling operations, and protecting infrastructure 
critical to the MTS. The risk-based decision-making model 
utilized in the overall strategy development and proposed 
implementation will be very beneficial. I believe that the 
stated goals and objectives are reasonably achievable, given 
support and resources on an on-going and consistent manner. I 
think that on-going and consistency is very important. The most 
important goal stated in the strategy in terms of port-wide 
risk management in my mind is to increase operational 
resiliency by ensuring mission-focused cyber space operations 
and incorporating cybersecurity into U.S. Coast Guard culture. 
This focus on resiliency and the concept of establishing a 
culture of cybersecurity is key to managing risks posed by a 
persistent and capable threat. This operational resiliency will 
effectively reduce the consequences associated with a potential 
cyber-based transportation security incident and work to gain 
buy-in from port area partners and other maritime domain 
stakeholders. Ultimately, to adequately address the cyber risk, 
we must all work to establish and nourish a culture of enhanced 
cybersecurity and vigilance within our own organizations. You 
have many of my recommendations in my written testimony, so I 
am not going to go through all those today. But, most 
importantly, I feel we need to continue to support at the port 
level and the National-level risk-based decision making and the 
assessments required to do so.
    So I will leave you today with thanking you for this 
opportunity. General Douglas MacArthur is credited with saying: 
There is no security on this Earth, only opportunity. I feel 
right now we have that opportunity to help build cybersecurity 
throughout the MTS. Thank you very much.
    [The prepared statement of Mr. Sawicki follows:]
                 Prepared Statement of Jonathan Sawicki
                            October 8, 2015
                              introduction
    Madam Chairman, distinguished Members of the committee and members 
of the audience, my name is Jon Sawicki and I was asked to testify 
today based upon experience gained while serving as the security 
improvement program manager for the Ports of Brownsville and Harlingen, 
both located in Cameron County, Texas. I am humbled and honored to be 
here today to share with you this experience, as well as my own 
opinions on the status of cybersecurity in our port communities.
    Today I would like to focus on the importance of risk-based 
strategic planning and how cyber risk is a critical component of that 
approach. I would like to share with the committee information on 
recent efforts to manage cyber risk in the maritime domain and will 
provide brief comments on the USCG's Cyber Strategy, as well as provide 
some general recommendations for consideration by the USCG and 
committee Members as you work to enhance the National cybersecurity 
posture. My hope today is that, the Members of the subcommittee, the 
audience and my fellow witnesses are better equipped to make informed 
risk-based decisions when developing and implementing cybersecurity and 
resiliency strategies.
             strategic planning at the port of brownsville
    The bombing of the USS Cole on October 12, 2000, and the subsequent 
terrorist attacks against the United States on September 11, 2001 made 
it clear that homeland security as a whole needed to be enhanced 
throughout our country. Just as how we travel by air has changed 
significantly, the means by which we conduct maritime commerce in ports 
and waterways world-wide has been impacted by the reality that 
motivated and capable threats do exist, and they pose a risk to the 
lives and livelihoods of people everywhere.
    To mitigate against physical security threats, in 2002 the Port of 
Brownsville established a sworn police department responsible for not 
only enforcing laws and providing public safety, but for implementing 
programs and measures to protect port infrastructure and maintain 
compliance with the Maritime Transportation Security Act (MTSA). In 
2007 the Port conducted a comprehensive threat assessment, closely 
followed in 2008 by the development of a port-wide strategic risk 
management/mitigation and trade resiliency/resumption plan, which has 
since been used as a guide for the design and development of PSGP 
project applications.
    While not required of the Port of Brownsville, the completion of 
this first port-wide strategic risk management plan has been critical 
to our success in securing approximately $14,000,000 in funds to 
implement projects of a wide variety; from the development of 
sophisticated wide-area surveillance and TWIC-compliant access control 
systems; the construction of a new port command center and commercial 
truck entrance; and the purchase of multiple portable generators, light 
towers, and security shelters for use during incident response and 
disaster recovery operations.
    The Port is currently in the process of updating the initial Port-
wide strategic risk management/mitigation and trade resiliency/
resumption plan. This update has an added focus on industrial hazards 
at non-USCG-regulated facilities, the ability to coordinate emergency 
response activities with all port tenants and evaluating the Port's 
cybersecurity and network preparedness posture. A strategic risk-based 
approach to managing the threats and hazards at the Port of Brownsville 
has resulted in a safer and more secure environment within which 
commerce can be conducted.
                cybersecurity at the port of brownsville
    Using the National Institute of Standards and Technology (NIST) 
Cybersecurity Framework as a guide, the Port of Brownsville recently 
conducted a basic cybersecurity assessment to identify critical 
systems, evaluate their current cybersecurity posture; establish a 
target state for cybersecurity; and identify and prioritize 
opportunities for improvement within the context of a continuous and 
repeatable process. The timing of this assessment was optimal as the 
Port had recently hired its first in-house IT manager and was in the 
process of performing a significant upgrade to the existing 
communications platform, computer operating systems (hardware and 
software) and port management information system.
    The results of the cybersecurity assessment indicated opportunities 
for improvement in all five cybersecurity functions; identify, protect, 
detect, respond, and recover. Using the results of the cybersecurity 
assessment the Port prepared and submitted a grant project application 
through the fiscal year 2015 PSGP, which unfortunately was not selected 
for funding. Though this project did not receive funding, the Port 
strives to improve cybersecurity and network resiliency through 
targeted upgrades and enhancing the capabilities of IT-tasked 
personnel.
                      uscg cybersecurity strategy
    In general I support the USCG's vision for operating in the cyber 
domain, and the three primary priorities of defending cyber space, 
enabling operations and protecting Infrastructure critical to the 
maritime transportation system. The risk-based decision-making model 
utilized in the overall strategy development and proposed 
implementation will be beneficial, and I believe that the stated goals 
and objectives are reasonably achievable given support and resources 
are on-going and consistent.
    The most important goal stated in the strategy in terms of port-
wide risk management is to ``increase operational resiliency'' by 
ensuring mission-focused cyber space operations, and incorporating 
cybersecurity into U.S. Coast Guard culture. This focus on resiliency 
and the concept of establishing a culture of cybersecurity is key to 
managing risk posed by a persistent and capable threat, or natural 
hazard such as a major hurricane. Given the likelihood of a future 
cyber incident impacting the maritime transportation system, the true 
measure of a successful cyber risk management program will be the 
ability to operate in a degraded manner while the threat is addressed 
and systems are restored. This operational resiliency will effectively 
reduce the consequence associated with a potential cyber-based 
transportation security incident, and work to gain buy-in from port-
area partners and other maritime domain stakeholders. Ultimately, to 
adequately address the cyber risk we must all work to establish and 
nourish a culture of enhanced cybersecurity vigilance within our own 
organizations.
                 recommendations and closing statement
    Recommendations:
  <bullet> Continue to provide resources through the PSGP to promote 
        the enhancement of cybersecurity and network preparedness 
        within the maritime domain. Considerations should be made to 
        reduce the cost match requirement for cybersecurity assessments 
        and strategic planning projects that follow the NIST 
        Cybersecurity Framework.
  <bullet> Continue to provide resources through the PSGP to conduct or 
        update port-wide strategic risk management/mitigation and trade 
        resiliency/resumption plans. Consider reducing the cost match 
        requirement for grantee projects that directly address cyber 
        vulnerabilities identified in the strategic risk management 
        plans and/or area maritime security assessment (AMSA).
  <bullet> Continue to provide resources through the PSGP to support 
        cybersecurity training and exercises. Consider reducing the 
        cost match requirements for projects that provide consistent 
        and accredited cybersecurity training of varying levels to 
        members of the port community, specifically those offered to 
        both public and private entities.
  <bullet> Provide for flexibility in future policies or regulations, 
        taking into account unique port-specific risk profiles and 
        operating environments when determining appropriate mitigation 
        levels.
  <bullet> Further define and provide guidance on what constitutes a 
        transportation security incident specific to potential or 
        actual cyber breaches.
  <bullet> Encourage cybersecurity breach reporting by port facilities 
        by putting in place measures to safeguard information to a 
        degree that limits the reputational impact on the entity 
        breached.
  <bullet> Continue to lead and facilitate cybersecurity discussions at 
        AMSC meetings and other industry groups such as ASIS and the 
        FBI's Infraguard Program.
    Thank you again for the opportunity to testify before this 
subcommittee. General Douglas MacArthur is credited with saying, 
``There is no security on this earth; only opportunity''. These words 
are as relevant today as they were almost a century ago. Cybersecurity 
must be approached as an on-going cycle, not a means to an end. Threat 
actors will always look for opportunities to exploit system 
vulnerabilities. As such, we must always be identifying and 
capitalizing on opportunities to increase our own preparedness, 
protection, and response capabilities.

    Mrs. Miller. Thank you, all of you, gentlemen. I think what 
I will do is just ask a more global question and ask each one 
of you to respond to it. I will preface it by telling you the 
reason I called this hearing, obviously, I mean, if you talk to 
anybody at the Pentagon and you ask them, ``What keeps you 
awake at night,'' they will tell you cyber attack. That is what 
they are worried about, as much as anything else, of all the 
threats that we face. When you talk to Members on the Intel 
Committee, you know, they will tell you about some of the 
things that are happening. I mean, we see some of the things 
openly reported of these hackers, like the OPM kind of thing 
that happened here in the Government domain recently, where you 
had the hackers sitting there probably in the information 
environment for could have been a year, you know. As Members of 
Congress, we were talking about whether or not we ought to get 
credit-security agencies available to all these folks that had 
been hacked in. But, look, they weren't looking for somebody's 
credit card information probably.
    The other hat that I wear besides sitting on the Homeland 
Security Committee, I am also the Chair of the House 
Administration Committee, where we are concerned about cyber 
for the campus here. I won't go into some of the issues that we 
have had there. But, obviously, we are a target, right? So you 
can imagine.
    But, at any rate, as I sort-of think about this whole area 
of cybersecurity in the port, in the maritime environment, and 
I think about the Coast Guard being missioned with this, and, 
Admiral Thomas, I would also say, you know, I also have a 
saying, I always say if it is wet and impossible, send in the 
Coast Guard because you guys just handle it. Then, you know, 
since 9/11, all we have done is load you up, load you up, load 
you up with so many other kinds of missions. Now you are tasked 
with this as well, with cybersecurity. But, you know, the world 
is a changing, evolving threat environment all the time. It is 
much more asymmetrical than it has ever been in the past, as 
evidenced by the kinds of things, the worries that fellows at 
the ports are having.
    I guess, just generically, my question is: How do you think 
the Coast Guard is doing with this mission? To the rest of 
you--and nothing against the Coast Guard--but do you think the 
Coast Guard is the proper agency, and do they have adequate 
resources, again, to carry out another mission that the 
Government has missioned them, tasked them with? Our committee, 
we need to hear from all of you of what kinds of situations you 
are having out there. Then it is up to us to finance to the 
best extent that we can, prioritize the Government's money here 
of doing the kinds of things we need to be able to do to make 
sure that the missions we give the brave men and women in the 
Coast Guard and every other agency is adequate for that. I 
guess that is, sort of generally, I am trying to understand 
whether or not the Coast Guard is, the kinds of challenges that 
you find yourself with and what the rest of you think about how 
that is going and what, perhaps, we could do differently if 
necessary. Admiral?
    Admiral Thomas. Thank you for that great question. In my 
statement, I mentioned that we don't view this as a new 
mission. We view it as a natural extension of our existing 
mission. Maybe I can elaborate on that. When the maritime 
industry shifted from sail to steam, the Coast Guard had to 
develop standards and the ability to assure compliance with 
those standards for boilers and for engineers for the first 
time, and then when we shifted from steam to internal 
combustion and from internal combustion to major electrical 
power. So the industry has moved to operating in cyber. The 
Coast Guard has got to move with them. So it is the natural 
extension of our mission given to us by Congress to manage 
operational risks in the maritime area.
    Now, that said, it is a different type of risk that we have 
to manage. So we need to develop different expertise, and we 
need to bring some different capabilities. We are doing that by 
leveraging the expertise and capabilities that exist across the 
Government and by building our own work force. One of the 
reasons why our commandant insisted that we have a cyber 
strategy is so that our entire organization stays focused on 
those things that we know we need to do in order to be 
operationally effective across all of our missions in the 21st 
Century operating environment. That includes building the 
workforce. It includes developing the proper kind of standards. 
So, again, I don't see this as a new mission. We see it as a 
new domain in which we need to conduct all of our missions.
    Certainly when I talk to the industry about how do we 
manage the risks introduced by cyber systems, and we talk about 
how we manage other risks that, you know, have always been out 
there, the same types of approaches, the same risk-based 
performance standards, the same type of regulatory regime is 
what people tell me they think works. So thank you for the 
question.
    Mrs. Miller. Mr. Wilshusen.
    Mr. Wilshusen. Yes, I would just like to add, too, that it 
is good to hear Admiral Thomas talk about leveraging other 
resources across the Federal Government because there are 
several that can help as the Coast Guard tries to bring up 
their cybersecurity capabilities. Even within its own 
Department, the Department of Homeland Security, the Office of 
Cybersecurity and Communications has a number of groups that 
are skilled in cybersecurity-related matters, and that 
certainly can help inform the Coast Guard's effort. In 
addition, the National Institute of Standards and Technology 
has developed a framework, a cybersecurity framework for 
improving cybersecurity within the critical infrastructure. 
That, too, is another framework that can help inform the Coast 
Guard's efforts and, indeed, all of the maritime sectors' 
efforts to improve the cybersecurity. So there are other 
resources available that can help the Coast Guard in performing 
those activities.
    Mrs. Miller. Mr. Parsons, what is your thought?
    Mr. Parsons. Madam Chair, I don't think there is any 
question the Coast Guard is the right agency. The Coast Guard 
and their Captains of the Port are perfectly positioned to lead 
strategy and guidelines for port security measures. As the 
admiral says, that is what they have done all along. They are 
the right people.
    Clearly, something this large and complex, there is going 
to be a maturational process to this. I feel like we are at the 
beginning of it. But the things that I feel we need in the 
maritime environment are leadership, coordination, a strategy, 
create a fabric for all the working entities in the port, not 
just port authorities but for the business entities in the 
port. Quite frankly, we struggle as a landlord port to have 
much say in the position of security in our tenants.
    You mentioned the fully-automated terminal. Once fully 
operative, that will handle 3 million cargo containers a year. 
That number, which is expected to be fulfilled through 
contracts, would make that one terminal the fourth-largest port 
in the United States. We have very little input into their--we 
can inquire, we can discuss it, we can confer and collaborate. 
But we have no guidelines or standards that could help them 
motivate. I am sure they have a very robust cybersecurity 
program for a fully-automated terminal. But we don't have any 
insight into that and no real insight in how to get there. The 
last thing I would say is many of the challenges I mentioned, 
again, the Coast Guard I think is postured for systems 
awareness, threat awareness, training programs. They are kind-
of a mishmash if they exist.
    Our concern is that the level of resources that they have 
to do this job and how long it would take to do it. If there 
were a National vulnerability assessment, a charge for all 
ports, that is going to be a beefy undertaking. It is going to 
take a long time. But, again, with their experience of 
understanding the difference between the different nature of 
the ports, I think the Captains of the Port are, again, the 
best postured to take something like that on.
    Mrs. Miller. Mr. Sawicki.
    Mr. Sawicki. Thank you very much. In my opinion, for the 
current operations, yes, the Coast Guard has resources to 
continue to facilitate the conversation. I think that is the 
most important part right now is that within ports, we have 
many experts at many private terminals. But it is very 
difficult to get them all into one room to share their own 
strategies because they all compete. So I think at this point, 
the Coast Guard is doing an incredible role through Area 
Maritime Security Committees, to port safety committees to 
facilitate that conversation and to better understand what 
private industry is doing, some of their concerns. The primary 
concern that I see with information sharing specifically with 
port tenants is the possibility for reputational impact of a 
private company if they share a cyber breach.
    So I think, currently, by facilitating these conversations, 
by working with private industry and working within existing 
regulations, I believe the Coast Guard is the right 
organization for this role. I believe it will take us a while 
to get there, but this is a very big problem. We are still in 
the proactive stage. Fortunately, we are not in the reactive 
stage. Thank you very much.
    Mrs. Miller. Thank you all very much.
    Before I recognize the Ranking Member, I would also like to 
recognize, and as you see, the gentleman from Texas, Mr. 
Ratcliffe, who is the Chairman of the committee's Subcommittee 
on Cybersecurity, Infrastructure Protection, and Security 
Technology, be allowed to sit on the dais and participate in 
today's hearing.
    Without objection, so ordered.
    Mr. Vela.
    Mr. Vela. Thank you, Madam Chairman.
    Mr. Parsons, you hit on two points that I would like to 
basically hear about in a broader context of not just 
cybersecurity but port security in general. The first is with 
respect to communication between ports, for example, in 
California, Port of San Diego, Long Beach, Los Angeles, San 
Francisco, and many others--in Texas, it would be Port of 
Brownsville, Port of Corpus Christi, Galveston, Houston--what 
kind of information-sharing systems do we have in place between 
all these different ports?
    Mr. Parsons. In our area, we have, the first thing and the 
best thing is we know each other. We spend a lot of time 
together in other emergency management and crisis situations. 
We attend the same conferences. We are part of the same 
cybersecurity working groups that cover both ports. We share 
information.
    I will tell you a bright spot in information sharing is the 
FBI's Cyberhood Watch Program. That is one place where port 
entities and, importantly, private-entity terminals have agreed 
to input their defense information as they defend against cyber 
attacks into the FBI Cyberhood Watch. The FBI analyzes that 
information. One thing we really appreciate is, it is a two-way 
flow of information. They provide the information back to the 
stakeholders if they see a pattern or a trend that needs 
tending. That goes to all stakeholders. So some of that 
proprietary influence has been broken down with Cyberhood 
Watch.
    Mr. Vela. Mr. Sawicki.
    Mr. Sawicki. I agree. It would also reinforce that through 
the FBI's InfraGard Program as well. That is where a lot of 
industry information sharing takes place. Port-wise, you are 
looking at conferences, AAPA events, seminars where the same 
groups get together, discuss issues they are sharing. I am not 
aware of any formal communication platform between ports to 
share. Now, if there is an issue, someone receives a breach, 
then information sharing takes place through the National 
Response Center. I have not seen that process take place. I am 
not sure how reactive it can be. But, currently, Area Maritime 
Security Committees, existing meetings, the conversations are 
happening. Everyone is talking about it. But as far as a formal 
platform, I am not aware of one.
    Mr. Vela. So would the common thread from coast to coast be 
the FBI Cyber Watch Program? Is that what you called it?
    Mr. Sawicki. There are multiple programs under, I believe 
under the InfraGard Program which is, I am a member, I sign up, 
very quick background checks. Then I receive emails on specific 
threats that are out there. Most of these are Non-classified 
but Sensitive I guess would be the way to put it. So there is 
information in industry. When industry partners talked to non-
maritime, like NERC, for example, some of the other regulatory 
boards, there is a lot of information out there. But it is more 
informal than formally received.
    Mr. Vela. Mr. Parsons, the other point I wanted to hit on 
is you mentioned the challenge in getting the tenants to share 
information. Is that something that we see across the Nation?
    Mr. Parsons. Yes. One of those things I don't think is 
unique to the maritime environment. It is a valid concern. One 
thing I think the Cyberhood Watch Program has done is called 
the private-sector tenants together, made the point: We 
understand your position; we have seen it happen in the United 
States. But, on balance, with the port complex such as Long 
Beach and Los Angeles, we do have to balance proprietary 
interests with potential damage to National security. That 
argument and possibly others have drawn these private-sector 
people into Cyberhood Watch. That is a huge step. There has 
been a lack of trust, parochial interest in their information. 
That has been a tough pull. But this is a glimmer of success 
that we have seen.
    Mr. Vela. Mr. Wilshusen, what are your thoughts on the 2015 
Coast Guard cyber strategy?
    Mr. Wilshusen. I think it is a step forward to recognize 
and identify the three objectives that they have laid out in 
their strategy, particularly with protecting the critical 
infrastructure in the maritime environment, which was the focus 
of our report and the actions we have done there. So, to that 
extent, I think it has been a positive step and something that, 
of course, I understand will be guiding their efforts going 
forward.
    But one thing I would just like to also point out regarding 
the information-sharing issue that has been discussed is that 
there have been a number of barriers to effective information 
security. Mr. Parsons and Mr. Sawicki touched on a couple of 
those. One is having, establishing those relationships and how 
important it is to establish trust in order for private-sector 
companies to share their information with the Government or 
among themselves. The other thing is part of what could happen 
to facilitate that sharing of information is to have a secure 
mechanism in which organizations can provide that information 
to Government and, conversely, Federal agencies can provide 
actionable threat alert and incident information back to the 
private sector. There should also be capabilities to anonymize 
the information so the issue with regard to reputational 
impairment, if you will, on the part of a private sector who 
reports an incident and it is cited, leads could be anonymized 
so the individual entity is not being identified, but the 
information about the threat, about the incident, and it will 
be something that can be shared across the sector. So there are 
a couple actions that can be taken to help improve information 
sharing across the board.
    Mr. Vela. Thank you.
    Mrs. Miller. The Chair recognizes the gentleman from New 
York, Mr. Donovan.
    Mr. Donovan. Thank you, Madam Chair.
    I would like to thank you and the Ranking Member for 
allowing me and Ratcliffe to intrude on your hearing.
    First of all, gentlemen, thank you for what you do for our 
country, your interest in protecting our National security. I 
have two reasons why I asked the Chairwoman and Ranking Member 
if I could join you today. One is we have a great love for the 
Coasties. I come from New York. When Governors Island closed, 
the Coasties came to Staten Island, where I live. We are very 
proud. We are very grateful for their work. We are so honored 
that they decided to come to Staten Island.
    The other is my dad was a longshoreman for 40 years. Before 
containerization, longshoremen would go down into the hull of 
the ship with a hook and grab a burlap sack of coffee beans and 
walk it out of the hull of the ship. My father used to come 
home with the coffee beans, the loose ones, in his cuffs of his 
pants. We used to grind them up, and we had coffee. But, you 
know, the security back then, I suspect they had dogs that 
would sniff the cargo, maybe some detectors for radiological 
materials on some of the ships. But your mission has become so 
great.
    When you spoke, Admiral, about--you guys remind me of Larry 
the Cable Guy; you are just going to get 'er done no matter 
what it is. But your resources are finite. To take on this 
other mission or expanding the mission that you already have in 
the security of our ports is going to cost you resources. Are 
other parts of the Coast Guard's missions going to suffer 
because now you have to direct resources to this new threat 
that we face now in cybersecurity?
    Admiral Thomas. Thanks for your support of the Coast Guard. 
We love Staten Island as well. I would say of the three 
objectives in our Coast Guard cyber strategy, the least 
resource-intensive is the one around our role for protecting 
maritime critical infrastructure. That is because of some 
points that have already been made. That infrastructure is 
privately-owned. The real responsibility to do the defense of 
those systems is with the private sector. So we don't envision 
Coast Guard personnel, for example, actively defending private-
sector systems. Our role in that regard is to set a reasonable 
performance standard and then have the people in place to 
ensure that standard is met. That might involve the use of 
third parties. In fact, I am quite certain that it would. We 
use third parties across our compliance program. So do we need 
additional resources to do that? Yes. Is the demand as large as 
you might think? Probably not, at least not for that component 
of our strategy because, again, we will leverage the 
capabilities across the Government, both in terms of setting 
the standards. One of the reasons that we don't have the 
assessments in place that the GAO would like to see is because 
we want to make sure we use the same assessment tools that are 
used in other sectors. They are just not there yet. So it 
wouldn't make any sense to move out ahead of them.
    But we will leverage all those resources. Yes, there will 
be a resource bill. Will it impact our other missions? Our 
Coast Guard Commandant has been pretty clear that cyber is a 
way to make sure we do our missions better and more 
effectively. It is not a mission to detract from others.
    Mr. Donovan. Thank you very much.
    Madam Chairman, I waive the rest of my time. Thank you.
    Mrs. Miller. I thank the gentleman.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair. Once again, always a 
pleasure to serve with you on this subcommittee. As you know, I 
probably live about 25 minutes away from the Port of Long Beach 
and maybe half an hour away from the Port of Los Angeles. 
Almost 50 percent of our goods, I think, come through those two 
ports to the United States. The Port of Long Beach alone 
handles about $150 billion in trade annually. Of course, we are 
talking about a lot of Southern California jobs between these 
two ports.
    So I would like to ask Mr. Parsons, what would be the 
impact of a significant cyber attack on your port? What do you 
envision would be, on the high end, something that would just 
cripple what is going on? How long do you think, given the 
current infrastructure, it would take to get things back to 
normal?
    Mr. Parsons. Congresswoman, we are always very concerned 
about major attacks. But I will tell you, we have experienced 
plenty of small ones that have given us some insight into what 
happens in port environments. Those have been generated some by 
labor action and slow downs, some by malfunctioning of systems, 
not only within ports but on a larger scale, with the city of 
Long Beach.
    Ms. Sanchez. With the automation, and I know the 
automation--I understand the whole issue of much of this 
infrastructure is owned by these individual maritime companies, 
et cetera. But give me an example of something that you think 
would be just incredibly crippling and what we could imagine 
would be the after-effect. I am thinking from an economy 
standpoint in particular for California.
    Mr. Parsons. Well, we could go back to 2002 and the work 
stoppage there, where the National economy was dramatically 
affected. Depending on whose figures you believe----
    Ms. Sanchez. Was that like 8 days or 18 days?
    Mr. Parsons. Exactly. In 2002 dollars, it was a loss of $1 
billion a day to the National economy. So we can assume it has 
gone up from there. What we have seen is systems shut down. As 
Mr. Sawicki talked about, resiliency and redundancy is a huge 
part of cybersecurity; how quickly can we spin back up? What we 
have seen is a lack of redundancy and acceptable back-up 
systems, in some cases, as simple as power back-up. Some of the 
terminals, during the problems we had with the electrical grid 
out there, they were down. The irony was the security systems 
were up and running, were back up, but the economy isn't 
moving. So that is a great concern to us. Again, it goes back 
to the awareness of the systems; exactly how long would it take 
these individual terminals to come back on?
    Ms. Sanchez. I remember it was, even after we solved the 
issue, it was a long time in getting the back-up and getting 
everything back to normal and getting the ships out. Of course, 
much of that was perishable to some extent, et cetera. So it 
was a big economic crunch.
    I am very confident in my Coast Guard, I have visited a lot 
both up in the San Francisco Bay area and, of course, in our 
ports, and in San Diego, with respect to your ability to cover 
and to have consistent knowledge of each port within the Coast 
Guard. So I want to congratulate you on that actually because I 
think you are doing a good job with respect to that.
    But I think this whole issue, Madam Chair, going back to 
this issue of, and we have seen this over and over in other 
areas, whether it is petrochemical or anything else, that the 
mainstay of the infrastructure is in individuals' hands, right, 
in private hands. So what is our role, and how do we ensure 
that, in fact, even in an economic situation there is backup 
energy generation, for example? So I know that you have all 
talked about, you know, we need more communication or we need 
more, we need to know more. How do we do that? How do we, if 
we, the Government, wanted to somehow take the initiative to 
actually get this going, what would that look like? What could 
we do, given that everybody, the individual stakeholders have 
proprietary information, you know, they want to but they don't 
want to come together and figure out how we are better 
protected against cyber. Seeming that Homeland Security is 
supposed to be in charge of everything but defense cyber in our 
agencies and that we are somehow supposed to help private 
entities who are so important to us get this act together with 
us, what would you suggest? If I told you tomorrow, ``Fix this 
problem and let's get this done,'' what would that look like? 
To any of you who are on the panel. Give us some ideas of what 
we can do as a committee to help you get that done.
    Mr. Sawicki. It is a very good question, a very difficult 
question. But I think, initially, it is to focus on those 
systems that facilitate commerce, the navigation systems. You 
know, after a hurricane, as an example, you can have every 
facility ready to operate, but if that channel isn't open, then 
it really doesn't matter.
    So I would say focus on the major navigation systems, the 
Federal systems. Ensure private industry's trust in those 
systems, and then help facilitate conversations among private 
industry because I believe private industry is going to do on 
their own to protect their own interest. So other than that 
magic bullet, it is just to focus internally first while 
everyone else tries to get a handle on the situation on their 
own, if that makes sense.
    Mr. Parsons. Congresswoman, as a Government and a 
committee, it has a lot to do with what we talked about today: 
Supporting the Coast Guard to create this fabric; identify 
systems through risk-based assessments; identify the priority 
gaps. But I think there has got to be some regulation. It can 
be voluntary, as it has been in the past. To be honest with 
you, left to our own devices, we don't seem to have done very 
well.
    So the other thing I mentioned is the Port of Long Beach 
has used incentives for our private-entity partners to engage 
in various programs that we have had there. But you may evolve 
to regulations and even requirements, authorities that have 
been given to the Coast Guard in some other areas, but we have 
to generate whatever motivation it's going to take to get this 
done.
    The reason it is going to be a maturational process is 
there's not one size that fits all with ports, so there has got 
to be a recognition that it is a different playing field in 
different ports.
    Ms. Sanchez. Thank you, Madam Chair.
    Yes, and I agree. If you have seen one port, you have seen 
one port. Thank you.
    Mrs. Miller. I thank the gentlelady very much.
    The Chair recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman Miller and Ranking 
Member Vela, again, for the opportunity to be part of your 
subcommittee today and for holding this hearing on a critically 
important topic.
    On the Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies, where I also serve, we 
talk a lot about cybersecurity threats to our power grids and 
to our nuclear missile silos and other critical infrastructure. 
But we, frankly, talk a lot less about the fact that 90 percent 
of the world's consumer goods are shipped on boats and vessels 
that come through our ports, and that statistic alone really 
underscores the gravity of the threat that we are talking about 
here. If the maritime industry suffered a major cyber attack, 
it could leave grocery store shelves empty. It could leave gas 
tanks at filling stations across the country empty, and, 
obviously, that would have a devastating, tremendous impact on 
our economy.
    To that point, I want to ask about a report that was in the 
news last year--and maybe, Admiral Thomas, you may be the one 
to start with--I read a report that a U.S. port had suffered a 
7-hour interruption of a GPS signal. Can you confirm that for 
me?
    Admiral Thomas. Yes. I mean, there's a container terminal 
that is fully automated that relies on GPS signal in order to 
locate specific containers and move cranes around. That 
particular disruption, if we are thinking about the same one, 
was ultimately determined not to be related to an intentional 
attack, but it does highlight the vulnerabilities associated 
with particularly relying on one system for that type of an 
operation.
    Mr. Ratcliffe. Terrific.
    So given the challenges that the Department of Homeland 
Security and the Federal Government--I think it is well-known--
are having in this arena with respect to the ability to retain 
a talented and keep a talented cyber workforce, I would like to 
get your perspective.
    There have been some discussions earlier about leveraging 
other resources, and within the Department, there is the NCCIC, 
the National Cybersecurity and Communications Integration 
Center. Is that a resource that you have been able to leverage? 
If not, why not, because a lot of what we have been talking 
about on the Homeland Security Committee generally is trying to 
elevate the NCCIC and its role and its use as a resource in 
this regard?
    Admiral Thomas. Well, I think you will be happy to hear 
that NCCIC is absolutely a resource for us, and as a resource, 
it impacts all three of our strategic priorities in our cyber 
strategy.
    We have a Coast Guard person there full time. That is one 
of the ways we are building our own expertise, but it also 
ensures that NCCIC is fully linked up with our Coast Guard 
Cyber Security Operations Center. We are sharing information on 
a daily basis. We are taking information in from the industry, 
and we are providing information dozens and dozens of times a 
year to the industry on cyber threats, particularly in the 
maritime sector.
    So NCCIC is every day getting more and more effective and 
getting more well-known and, I think, achieving their mission.
    Mr. Ratcliffe. Well, good. I am, actually, very pleased to 
hear that. So in follow-up to that, I would like to ask you, 
Mr. Parsons--because you talked a little bit about the 
information sharing aspect, and obviously, that is one of the 
things that the NCCIC tries to accomplish--has that been a 
resource for you, and, if not, why not?
    Mr. Parsons. In the Port of Long Beach, we have two cyber 
functions. We have two completely separate networks on the 
security side of the house. That is a reliance we have on the 
Enterprise Information Management Group. They have for the last 
3 years had staffing, particularly as cybersecurity experts, 
and we looked at them to share that information on an 
enterprise level. With our stand-alone network, we share with 
various Federal databases. Both networks' personnel meet and 
talk with each other.
    Both the Port of Los Angeles and the Port of Long Beach 
have CSOCs, a Cybersecurity Operations Center. The city of Los 
Angeles, the mayor's office, stood up a robust Cyber Fusion 
Center for the region, and both ports have connectivity with 
that.
    I think part of the point you are trying to get to, though, 
is, to me, there is a lot of sharing going on, but I think 
there may need some better leadership and direction to make 
sure the right information is getting to the right people.
    Mr. Ratcliffe. Okay. Thank you.
    Mr. Wilshusen, a follow-up because you, actually, you know, 
broached this subject and talked about some of the barriers to 
information sharing, but I assume that you're familiar with the 
bill that we moved through this committee and then successfully 
through the House, the National Cybersecurity Protection 
Advancement Act. That is an information sharing bill, and it 
does provide for--or intends to provide for, if passed into 
law, the opportunity to scrub out the type of information that 
has discouraged sharing personal identifying information, 
proprietary information, and to limit it to cyber threat 
indicators.
    Any perspectives on that legislation, and was that what you 
were addressing?
    Mr. Wilshusen. Well, I think, you know, to the extent that 
that legislation will improve the sharing of information on 
cyber threat incidents among the various different sectors and 
in the Federal agencies, it is going to be a positive. Indeed, 
you know, we are also going--we have been mandated--the GAO has 
been mandated to look at the NCCIC and how well it is 
implementing its mission roles and responsibilities in helping 
to facilitate the sharing of information.
    Mr. Ratcliffe. I appreciate you all being here today.
    Again, I appreciate the opportunity to be on the 
subcommittee. I yield back.
    Mrs. Miller. I thank the gentleman.
    I thank you both for attending. We appreciate it.
    The gentleman from Texas.
    Mr. Vela. Madam Chairman, I ask unanimous consent for the 
gentleman from Rhode Island, Mr. Langevin, to sit and question 
the witnesses at today's hearing.
    Mrs. Miller. Without objection, the Chair now recognizes 
Mr. Langevin, the gentleman from Rhode Island----
    Mr. Langevin. Thank you.
    Mrs. Miller [continuing]. A former Secretary of State as 
was myself.
    Mr. Langevin. Likewise. You bet.
    I want to thank the witnesses for being here today.
    Mr. Sawicki and Mr. Parsons, if I could just start with 
you.
    Mr. Sawicki, one thing that caught my eye in your written 
testimony was your recommendation that DHS ``further define and 
provide guidance on what constitutes a transportation security 
incident specific to potential or actual cyber breaches.''
    Can you and Mr. Parsons expand on this a bit further? What, 
if any, guidance have you received?
    Mr. Sawicki. Sure. Thank you very much for the question.
    My recommendation is--the focus of it is to help understand 
that just because a facility is in a port and on the water, 
every security incident doesn't always elevate beyond the fence 
line to where it impacts the American transportation system. So 
I think it is important that we all come up with a--whatever 
that line is to where it is purely an internal crime versus 
something that needs to be reported through NRC and responded 
to by the Federal Government.
    I am not aware of any specific guidance on what constitutes 
a transportation security incident based on cyber. I think in 
the majority of facility security plans or port security 
facility plans, there is always a question on what is a breach, 
what is a potential breach, and what is a near miss. So I think 
helping define that will help port facilities and ports report 
incidents that do occur.
    Mr. Langevin. So, can I ask you this? How do you report 
cybersecurity incidents to the Federal Government, and to whom 
have you reported?
    Mr. Sawicki. I think that is the question right now. We 
have not reported any cybersecurity incidents because we have 
not had any, that I am aware of, that are significant enough to 
report.
    I think one thing to understand, specifically for the Port 
of Brownsville and many other mid-tier ports, that our focus 
right now is not so much protecting our networks through 
additional measures; it is upgrading semi-aging systems, so 
upgrading software, hardware that comes with the basic 
protections versus adding additional protections.
    So, right now, if we were to have a breach to the port's 
cyber, to their internal email network, I think it would take 
some conversation to see who needs to be reported.
    Mr. Langevin. So let me take a different tack.
    What incidents do you report, and what are the criteria you 
use to determine whether to report?
    Mr. Sawicki. Right now, our incidents that we report are 
breaches of security based on our facility's security plan--so 
somebody who may jump a fence, be seen jumping the fence, you 
know, who kind of breaks our perimeter--you know, the basic 
intrusion. If there is a threat that is reported, we will 
report that. But, right now, it is most of the reporting is 
done in accordance with our security plan and is based on an 
actual breach of our physical security.
    Mr. Langevin. So, right now, no criteria for reporting any 
type of a cyber event or intrusion?
    Mr. Sawicki. Correct.
    Mr. Langevin. Okay.
    Mr. Parsons, if I could, in your testimony, you mentioned 
that ports can be reluctant to reveal they have been breached. 
Are there requirements as to what you must report?
    Mr. Parsons. No, sir, in the same vein about reporting. 
There is some confusion about what is reported to who. Our 
Information Management Division tells us we defend against 
approximately a million potential penetrations a day. That 
information is fed to the FBI's Cyberhood Watch Center. So they 
receive that information, and they analyze it with other 
reporting.
    Should a major incident occur in the port complex, what we 
would do isn't any different than any other potential emergency 
situation. We would call the Coast Guard. We would call the 
FBI. We would call our partners. We would say, ``Here's what 
we've got, where do you think this fits,'' because we have 
overlapping jurisdiction within maritime environments. So we 
work it out through personal communications and collaboration, 
but there isn't guidance to direct us.
    Mr. Langevin. Thank you, Mr. Parsons.
    Admiral, if I could turn to you, Admiral Thomas.
    How does the Coast Guard evaluate risk assessments and 
security plans with respect to cybersecurity, and have you 
found common challenges across different ports, and are there 
any model ports that you could point to in terms of protecting 
cybersecurity?
    Admiral Thomas. Well, thank you for the question.
    If I could just take up the issue of reporting first.
    I mean, we do receive reports of cybersecurity breaches in 
ports. We did receive one just last night, in fact. So there 
are reporting requirements. The cyber incidents that are 
related to the physical security requirements are reportable 
under the MTSA.
    So, for example, if there is a loss of access control to a 
facility or a loss of cargo control or a loss of perimeter 
control that is associated with a cyber breach, that is a 
reportable incident.
    The confusion comes because cyber touches all aspects of a 
port operation. So if it is a financial system, for example, 
that has been breached, well, that would not be reportable to 
the Coast Guard because it is not addressed under our 
authority. So I think the industry reps here are absolutely 
right that it is very confusing to figure out which type of 
incident gets reported to whom.
    Now, for your question with regard to how do we address 
cyber risks in the ports, I mentioned earlier--I think before 
you entered the room--that we are working very closely across 
the interagency to develop those risk assessment tools so that 
what we employ in the maritime is consistent with what is 
employed in the power sector and in the financial sector, et 
cetera. There are a number of those tools under development--
again, led by DHS--and we have piloted those in some of the 
major ports around the Nation.
    There are definitely ports that have been more active--
proactive, and it would be the ones that you would think about, 
those that have the larger amounts of really high-risk cargoes. 
Then there are others who are probably, rightly, just kind of 
waiting to see what develops in terms of standards.
    Mr. Langevin. Thank you. I see my time has expired, but I 
will have some follow-up questions. Perhaps, if you could 
respond for the record, I would appreciate it. Thank you.
    Mrs. Miller. I thank the gentleman very much.
    The Chair now recognizes Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. Madam Chair, could I yield to Mr. Donovan, 
and I will go last? I am still looking at my notes. Thank you.
    Mrs. Miller. Mr. Donovan has already had his 5 minutes. You 
are the last one.
    Ms. Jackson Lee. Then I cannot yield to Mr. Donovan, as 
they say.
    Mr. Donovan. Thank you.
    Ms. Jackson Lee. Let me thank Mr. Vela and Mrs. Miller for 
this, and I am always glad to see the Brownsville Port here and 
acknowledge that Congressman Vela has done an excellent job in 
this capacity and has provided great leadership on these issues 
for the State of Texas.
    Obviously, I am going to make note of the fact that we have 
the Houston Port, and we have a number of concerns about it.
    So let me, first of all, ask Mr. Sawicki, are you aware of 
the FBI watch, and do you engage--use any Federal resources 
such as the FBI if you think something has occurred with 
respect to cybersecurity?
    Mr. Sawicki. Thank you very much.
    I am aware of the FBI's InfraGard Program because I am a 
member of it, so I receive emails about current threats that, 
you know, can be sent out to people of my, I guess, stature, 
would be the best way to put it. So we coordinate the same way 
we coordinate cyber just like we coordinate safety and security 
in our ports. The Area Maritime Security Committees and 
Subcommittees are our primary method for information sharing 
and communication.
    I have also worked in and throughout the Port of Houston 
and the Houston Ship Channel, and there it is the very same 
way. We have very robust Area Maritime Security Committees and 
very robust Harbor Safety Committees, and that is where a lot 
of that information sharing is happening.
    Do we formally engage in Brownsville with the FBI 
currently? No, because there hasn't been the need to. We do--
the topic does come up during AMSC meetings, but we have not--
fortunately, we have not had a breach that would require us to 
coordinate with the FBI.
    Ms. Jackson Lee. What do you think the trepidation is for 
maritime companies not to share cyber attacks that have 
occurred?
    Mr. Sawicki. Competition. Competition and the potential for 
impact to their brand. We have seen some major breaches at some 
major companies, and we have seen CEOs lose their jobs. We have 
seen stock prices impacted. I think cyber is a little different 
because the likelihood of a cyber attack is as close to 100 
percent as you can get. So I think private industry is 
protecting themselves because of that likelihood, and they are 
building crisis management programs around cyber just like they 
do around environmental issues and things like that. So private 
industry is working on it.
    Ms. Jackson Lee. We understand that a decade or so ago, 
this committee established that over 85 percent of the 
infrastructure which would be subject to many attacks was in 
the private sector, and we have started to send out messages 
for them to prepare.
    But what can the Federal Government do that you think would 
be effective in sort of easing the concern of competition and 
looking more closely at the vast massive impact that would come 
from a cyber attack and particularly at the port?
    Mr. Sawicki. I think, initially and what is happening right 
now, it is facilitating the conversation, but ultimately, it is 
ensuring that any data that is shared is protected. So 
protecting your own networks first while private industry works 
to protect their networks and then to help--to continue funding 
training programs. You know, like I said, many ports right now 
are not the very large--not the Port of Houston, not the Port 
of Long Beach--to where the need is training. You know, we can 
have all the systems in the world, but if I click the wrong 
email, it can get right around all of it.
    So I think facilitating training, continuing to support the 
Port Security Grant Program, and then really looking at some of 
the cost-mass requirements for cyber projects that could 
potentially mitigate risk at a National level.
    Ms. Jackson Lee. Thank you.
    Admiral Thomas, I can't see you, but I know, by your 
excellent answers, that you are here.
    Let me have a series of questions with you, albeit briefly 
then. I thank the Chairman.
    As I do that, let me acknowledge the Brownsville Port, but 
then, of course, I have in my jurisdiction the Houston Port, 
which is a 25-mile-long complex of diversified public and 
private facilities and is a few hours away from Gulf of Mexico, 
which makes it vulnerable on a number of occasions--on number 
of points: It is man-made. It has major exports. In 2012, Ship 
Channel-related businesses contributed 1 million-plus jobs and 
178 plus 5 billion in State-wide economic activity.
    You heard the gentleman from the Port of Brownsville about 
competition and what could be done. You see the difference in 
size of the many ports across America.
    In terms of the Coast Guard's cybersecurity effort, how 
does the present structure of sequester impact that, and what 
answer would you give to the private sector who would be 
willing to give more information if they could be assured of 
the lack of a breach? What are the firewalls that we are 
putting in place or have in place?
    Admiral Thomas. Well, thank you for the question.
    With regard to the impact of sequester on our cyber 
operations, particularly our efforts to secure the critical 
infrastructure, I would say it is minimal now because we are 
still in the assessing and communicating phase, in the process 
of figuring out, what are the proper performance standards to 
put into place? As we move into a phase where we actually have 
to ensure compliance with those standards, then I think the 
resource demands become heavier on us.
    Ms. Jackson Lee. What is your projection for moving up to 
the next step?
    Admiral Thomas. Well, one of the interesting things about 
this cyber question is that it is not really uniquely maritime 
in that what we do in the maritime really needs to be closely 
aligned with and look a lot like what goes on in other sectors, 
so I think the Government needs to move through this.
    In other words, I don't think we want to be implementing 
hard standards in the maritime ahead of many of the other 
sectors, particularly those sectors that this--the maritime 
ports connect with because you wouldn't want to put in place 
separate requirements for entities that--you know, my rail is 
going to have to meet this, and my port facilities are going to 
have to meet that, and my trucking facilities something else.
    So I don't know. I think that the time line, though, has to 
be carefully coordinated and considered.
    Ms. Jackson Lee. Is that the Government's challenge to 
coordinate the private sector and cybersecurity, because maybe, 
Admiral, you might have a best practices idea under the Coast 
Guard that might be utilized by the railroads and otherwise? I 
am trying to see who starts, and what would be most helpful to 
get us into this process as I conclude.
    Admiral Thomas. So DHS really has taken a leadership role 
in coordinating across all the sectors, and the Coast Guard 
participates in that as does the TSA and all the other sector-
specific agencies. So I think the focus on sharing those best 
practices across sectors--and certain sectors are leading, 
financial, for example, and energy--is definitely in place, and 
the private sector is very involved in that effort.
    Ms. Jackson Lee. Thank you, Madam Chair.
    Mrs. Miller. I thank the gentlelady. I appreciate it.
    Ms. Jackson Lee. If I----
    Mrs. Miller. I am going to move on here. We have a hard 
deadline.
    Ms. Jackson Lee. I understand. When the gentleman finishes, 
I just want to put a ``thank you'' on the record.
    Mrs. Miller. Certainly.
    Ms. Jackson Lee. So I would appreciate it.
    Mrs. Miller. The Chair recognizes the gentleman from Texas 
now, Mr. Hurd.
    Mr. Hurd. Thank you, Madam Chairman.
    Thank you all for being here today.
    This question is directed at any one of you all that want 
to field it, and I want to pick up on some of the questions 
that my colleague from Houston has talked about.
    You know, ports, like many other industries in the world, 
are moving towards automation, integration, you know, and 
upgrades to industrial control systems. You know, probably the 
two publicly-known cases of physical damage occurring as a 
result of a cyber attack is Stuxnet, probably being the most 
well-known, and it occurred as a result of cyber attacks 
against industrial control systems.
    You all have talked about information sharing, but what are 
some of the unique challenges you all are dealing with in 
protecting industrial control systems, and, you know, what are 
you all doing specifically in that area?
    The admiral, maybe, or Mr. Parsons.
    Admiral Thomas. Well, I mean, I can talk to you about what 
I know is going on in some of the higher-tech portions of the 
maritime industry.
    So, for example, those vessels that are out in the Gulf of 
Mexico, drilling in very, very deep water, relying on dynamic 
positioning systems and systems that are making decisions 
faster than people can humanly make them, which enables them to 
drill, you know, miles down--that they really have begun to 
focus--rightly, I believe--on what I call a layered cyber 
protection strategy, which starts with individual components, 
the manufacturers of those components, how those are made, how 
they have been integrated into a system, and how that system is 
then integrated on the vessel but then, beyond that, really 
focusing on the human elements because this is more than just 
an IT problem.
    Also, how are those systems operated and maintained, and 
how are the operators and maintainers trained, because very 
basic training, like don't plug your iPhone into this system, 
can go a long way to help to prevent?
    So what I have seen, particularly in those portions of 
industry that rely more heavily on high-tech, is a risk-
management approach for cyber that is akin to what they have 
always done for physical threats, and I think that is a 
positive step.
    Mr. Wilshusen. I would just add, too, that one of the key 
elements to the increasing use of industrial control systems 
that have communications capability is just making sure that 
entities and corporations are aware of that capability and the 
threats associated with that.
    What we had found in a couple of our reviews is that the 
agency--and this is going back a few years--was not even 
familiar or did not know that its industrial control systems 
were actually connected to the administrative networks of the 
organization, and that created another avenue of access, if you 
will.
    So understanding the threats to the technologies that are 
being used and how that technology is being used is going to be 
key to that, particularly as it relates to industrial control 
systems.
    Mr. Hurd. I yield my final 2 minutes to my colleague from 
Texas. Thank you.
    Ms. Jackson Lee. Thank you, Mr. Hurd.
    I wanted to just say to the admiral but pose a question as 
well, first of all, thank you for the stunning and--obviously, 
I know you will say they were doing their duty work regarding 
the cargo ship off the coast of Florida during a very horrific 
time. I don't know if the Chairman and Ranking Member know of 
the interests that I have because I think security involves 
many aspects of our work, and that--we have no evidence of 
anything untoward. But certainly it was a tragic episode and a 
loss of life of many Americans.
    So, Admiral, I am thankful to you, and the question that I 
have that you could either do in writing--or I think I have a 
few minutes for you to answer--is: Any directions--or does the 
company and/or the captain seek information from the Coast 
Guard, their communications on-going that might draw the 
attention to come back to harbor in any situations like that?
    Admiral Thomas. Well, as you know, our investigation of 
that particular casualty is just starting under the lead of the 
NTSB, and those questions will certainly be asked. It is really 
the human element: What information was looked at by whom and 
when? Generally, though, a master of a ship of that size is not 
consulting with the Coast Guard with regard to his or her 
voyage planning.
    Ms. Jackson Lee. Is not consulting?
    Admiral Thomas. Is not consulting with the Coast Guard with 
regards to their voyage planning. Obviously, they are required 
to let us know when they tend to make a port call, but the 
voyage planning is something that is left to the ship's master 
and the company.
    But, as I said, our investigation with the NTSB will look 
into all of those factors, and we will be in a better position 
to let you know the specifics, hopefully in a few weeks.
    Ms. Jackson Lee. Thank you.
    Mrs. Miller. Thank you.
    Ms. Jackson Lee. Thank you, Mr. Hurd.
    Mrs. Miller. We thank the gentlelady for those comments.
    We began our meeting, actually--our hearing--by thanking 
the coastguardsmen and women for their extraordinary service in 
that incident.
    Thoughts and prayers, obviously, to all the families, the 
people that have been lost.
    So I want to thank the witnesses--all of you--for joining 
us today. I think it has been a very good hearing, a very 
timely subject, one that is not going away. It is something 
that we have to pay an incredible amount of attention to.
    So the Members of the committee might have some additional 
questions for the witnesses, and I would ask you all to respond 
to those in writing if they do put those in writing.
    Pursuant to the committee rule 7(e), the hearing record 
will be held open for 10 days.
    Without objection, thank you all again for attending.
    The committee stands adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
